<html>
<title> - FUELING THE 21ST CENTURY WIRELESS ECONOMY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


               FUELING THE 21ST CENTURY WIRELESS ECONOMY

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 5, 2017

                               __________

                           Serial No. 115-25
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           
                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-943 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="85e2f5eac5e6f0f6f1ede0e9f5abe6eae8ab">[email&#160;protected]</a>                         
                        


                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                   Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, California
MARKWAYNE MULLIN, Oklahoma           RAUL RUIZ, California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia

                                 7_____

             Subcommittee on Communications and Technology

                      MARSHA BLACKBURN, Tennessee
                                 Chairman
LEONARD LANCE, New Jersey            MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               PETER WELCH, Vermont
STEVE SCALISE, Louisiana             YVETTE D. CLARKE, New York
ROBERT E. LATTA, Ohio                DAVID LOEBSACK, Iowa
BRETT GUTHRIE, Kentucky              RAUL RUIZ, California
PETE OLSON, Texas                    DEBBIE DINGELL, Michigan
ADAM KINZINGER, Illinois             BOBBY L. RUSH, Illinois
GUS M. BILIRAKIS, Florida            ANNA G. ESHOO, California
BILL JOHNSON, Ohio                   ELIOT L. ENGEL, New York
BILLY LONG, Missouri                 G.K. BUTTERFIELD, North Carolina
BILL FLORES, Texas                   DORIS O. MATSUI, California
SUSAN W. BROOKS, Tennessee           JERRY McNERNEY, California
CHRIS COLLINS, New York              FRANK PALLONE, Jr., New Jersey (ex 
KEVIN CRAMER, North Dakota               officio)
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
GREG WALDEN, Oregon (ex officio)

                                  (ii)
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     1
    Prepared statement...........................................     3
Hon. Michael F. Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     4
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7

                               Witnesses

Scott Bergmann, Vice President, Regulatory Affairs, CTIA.........     9
    Prepared statement...........................................    12
David A. Wright, Director, Regulatory Affairs and Network 
  Standards, Ruckus Wireless.....................................    28
    Prepared statement...........................................    30
Jennifer A. Manner, Senior Vice President, Regulatory Affairs, 
  EchoStar Corporation and Hughes Network Systems................    47
    Prepared statement...........................................    49
Jared Carlson, Vice President, Government Affairs and Public 
  Policy, Ericsson, Inc..........................................    55
    Prepared statement...........................................    57

                           Submitted Material

S. 19, the MOBILE NOW Act, a Bill to provide opportunities for 
  broadband investment, and for other purposes, \1\ submitted by 
  Ms. Blackburn
Letter of April 5, 2017, from Steven K. Berry, President and CEO, 
  Competitive Carriers Association, to Mrs. Blackburn and Mr. 
  Doyle, submitted by Mr. Kinzinger..............................    99

----------
\1\ The information has been retained in committee files and also 
  is available at  http://docs.house.gov/meetings/IF/IF16/
  20170405/105841/BILLS-115S19pih-
  Toprovideopportunitiesforbroadbandinvestmentandforotherpurposes.
  pdf.

 
               FUELING THE 21ST CENTURY WIRELESS ECONOMY

                              ----------                              


                        WEDNESDAY, APRIL 5, 2017

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2123 Rayburn House Office Building, Hon. Marsha Blackburn 
(chairman of the subcommittee) presiding.
    Members present: Representatives Blackburn, Lance, Shimkus, 
Latta, Guthrie, Olson, Kinzinger, Bilirakis, Johnson, Long, 
Flores, Brooks, Collins, Cramer, Walters, Costello, Walden (ex 
officio), Doyle, Welch, Clarke, Loebsack, Ruiz, Eshoo, Engel, 
Butterfield, Matsui, McNerney, and Pallone (ex officio).
    Staff present: Grace Appelbe, Legislative Clerk, Energy and 
Environment; Ray Baum, Staff Director; Karen Christian, General 
Counsel; Zach Dareshori, Staff Assistant; Charles Flint, Policy 
Coordinator, Communications and Technology; Adam Fromm, 
Director of Outreach and Coalitions; Gene Fullano, Detailee, 
Communications and Technology; Giulia Giannangeli, Legislative 
Clerk, Digital Commerce and Consumer Protection/Communications 
and Technology; Kelsey Guyselman, Counsel, Communications and 
Technology; Lauren McCarty, Counsel, Communications and 
Technology; Alex Miller, Video Production Aide and Press 
Assistant; David Redl, Chief Counsel, Communications and 
Technology; Dan Schneider, Press Secretary; Jeff Carroll, 
Minority Staff Director; Alex Debianchi, Minority Telecom 
Fellow; David Goldman, Minority Chief Counsel, Communications 
and Technology; Jerry Leverich, Minority Counsel; Lori 
Maarbjerg, Minority FCC Detailee; Dan Miller, Minority Staff 
Assistant; and Matt Schumacher, Minority Deputy Press Secretary 
and Digital Director.
    Mrs. Blackburn. The subcommittee will now come to order.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    I recognize myself for 5 minutes for an opening statement, 
and I do welcome all of you to this hearing, which is titled, 
very appropriately, ``Fueling the 21st Century Wireless 
Economy.'' Thank you to our witnesses for, first of all, 
submitting that testimony in a timely manner; and, secondly, 
for taking your time to be here with us today. We do appreciate 
having your expertise.
    It is often said that spectrum is the lifeblood of wireless 
connectivity, and wireless demand continues to surge at an 
incredible rate. As a result, it is imperative that the 
subcommittee continue working to unleash spectrum for 
commercial purposes.
    The subcommittee held multiple hearings on this issue 
during the 114th Congress and noted that while a subscriber's 
data will grow by 400 percent by 2019, the subcommittee must 
demand that the FCC and NTIA work quickly to identify bands 
which can be reallocated and cleared for commercial use as we 
push to develop 5G networks, which are expected to be 
commercialized by 2020.
    A two-sided solution is necessary to address the spectrum 
crunch. First, we should push for continued deployment of 
spectrum. Second, the development of technologies which enhance 
spectral efficiency is vital. The NTIA will play an important 
role in this endeavor as it sets new clearing targets and 
evaluates how efficiently Government agencies use their 
spectrum.
    Federal entities should not be permitted to squat on this 
valuable resource without providing sufficient information 
detailing how they plan to use it. The societal and financial 
value of spectrum is simply too great for it not to be 
maximized.
    The FCC's National Broadband Plan of 2010 identified 547 
megahertz of spectrum suitable for mobile broadband to be 
unleashed over a 10-year period, and we recently completed two 
successful spectrum auctions. The AWS 093 auction generated $44 
billion in revenue and cleared 65 megahertz of spectrum, while 
the broadcast incentive auction raised $19.8 billion and 
cleared 70 megahertz of spectrum for exclusive licensed use. 
These auctions were successful. However, it is important that 
as a general rule we not impose restrictions on who can bid on 
spectrum.
    Congressman Latta and I wrote to the FCC in June 2015 about 
that issue and expressed concern that--and I am quoting--
``restricting free and open access to spectrum creates barriers 
to capital investment, innovation, deployment, and puts the 
Government in the position of picking winners and losers.''
    The free market is the most effective vehicle for continued 
spectrum development. Well-intentioned auction rules can 
artificially depreciate the value of spectrum. We should 
advance bipartisan legislation, such as the Guthrie-Matsui 
Federal Spectrum Incentive Act, which provide incentives for 
the reallocation of Government-held spectrum for commercial 
purposes.
    Also, Congressman Kinzinger's H.R. 1814 encourages spectrum 
licenses to make unused and underused spectrum available for 
use by rural and smaller carriers in order to expand wireless 
coverage and is certainly worthy of further examination.
    The subcommittee will also discuss the Senate's MOBILE NOW 
legislation,\1\ which addresses deployment challenges related 
to spectrum and infrastructure. The 5G revolution is upon us, 
and America must not fall behind. Deploying and promoting 
efficient use of spectrum is the two-sided solution we must 
adopt as wireless communications networks expand, and the 
Internet of Things is growing into the internet of everything.

---------------------------------------------------------------------------
    \1\ The information has been retained in committee files and also 
is available at  http://docs.house.gov/meetings/IF/IF16/20170405/
105841/BILLS-115S19pih-
Toprovideopportunitiesforbroadbandinvestmentandforotherpurposes.pdf.
---------------------------------------------------------------------------
    [The prepared statement of Mrs. Blackburn follows:]

              Prepared statement of Hon. Marsha Blackburn

    Welcome to the subcommittee's hearing titled ``Fueling The 
21st Century Wireless Economy.'' Thank you to the witnesses for 
appearing to offer your expertise.
    It is often said that spectrum is the lifeblood of wireless 
connectivity, and wireless demand continues to surge at an 
incredible rate. As a result, it is imperative that the 
subcommittee continue working to unleash spectrum for 
commercial purposes. The subcommittee held multiple hearings on 
this issue during the 114th Congress and noted that ``wireless 
subscribers data use will grow 400 percent by 2019.'' The 
subcommittee must demand that that the FCC and NTIA work 
quickly to identify bands which can be reallocated and cleared 
for commercial use as we push to develop 5G networks.
    A two-sided solution is necessary to address the spectrum 
crunch. First, we should push for continued deployment of 
spectrum. Second, the development of technologies which enhance 
spectral efficiency is vital. The NTIA will play an important 
role in this endeavor as it sets new clearing targets and 
evaluates how efficiently Government agencies use their 
spectrum. Federal entities should not be permitted to squat on 
this valuable resource without providing sufficient information 
detailing how they use it. The societal and financial value of 
spectrum is simply too great for it to not be maximized.
    The FCC's National Broadband Plan of 2010 identified 547 
MHz of spectrum suitable for mobile broadband to be unleashed 
over a 10-year period and we recently completed two successful 
spectrum auctions. The AWS 093 auction generated $44 billion in 
revenue and cleared 65 MHz of spectrum, while the Broadcast 
Incentive auction raised $19.8 billion and cleared 70 MHz of 
spectrum for exclusive licensed use. These auctions were 
successful; however, it is important that as a general rule we 
not impose restrictions on who can bid on spectrum. Congressman 
Latta and myself wrote to the FCC in June 2015 about this issue 
and expressed concern that ``restricting free and open access 
to spectrum creates barriers to capital investment, innovation, 
deployment and puts the Government in the position of picking 
winners and losers.'' The free market is the most effective 
vehicle for continued spectrum deployment. Well intentioned 
auction rules can artificially depreciate the value of 
spectrum.
    We should advance bipartisan legislation, such as the 
Guthrie/Matsui Federal Spectrum Incentive Act, which provides 
incentives for the reallocation of Government-held spectrum for 
commercial purposes. Also, Congressman Kinzinger's H.R. 1814 
encourages spectrum licensees to make unused or underused 
spectrum available for use by rural and smaller carriers in 
order to expand wireless coverage and is certainly worthy of 
further examination as we look to increase rural broadband 
deployment. The subcommittee will also discuss the Senate's 
MOBILE NOW legislation, which addresses deployment challenges 
related to both spectrum and infrastructure.
    The 5G revolution is upon us, and America must not fall 
behind. Deploying and promoting efficient use of spectrum is 
the two sided solution we must adopt as wireless communications 
networks expand and the Internet of Things seemingly grows into 
the Internet of Everything. Republicans and Democrats are eager 
to tackle the spectrum crunch. We look forward to hearing from 
our witnesses today.
    Thank you.

    Mrs. Blackburn. We look forward to hearing our witnesses 
today, and I will yield the balance of my time to any Member 
who is seeking it. Mr. Lance, you are recognized for the 
remainder.
    Mr. Lance. Thank you very much, Madam Chair, and welcome to 
our distinguished panelists. This subcommittee's longstanding 
tradition of bipartisan work on communications and technology 
issues is essential to facilitate the growth of 5G, which will 
revolutionize our Nation's healthcare, education, agriculture, 
energy, and transportation sectors.
    This topic is of particular interest to me. The district I 
represent is a hub of 5G innovation. The policies we are 
discussing today significantly affect businesses back home, 
such as Verizon, Qualcom, AT&T, and Bell Labs, which are 
working diligently to innovate in this important field.
    For instance, Verizon has vowed to be the first to market 
on 5G and has already launched technology field trials. 
Qualcom, which pioneered 3G and 4G, is also busy testing 5G at 
its state-of-the-art laboratories in Bridgewater, New Jersey, 
which has a long history of innovation. These are just a few 
examples of the businesses in the district I serve and around 
the country who are on the forefront of innovating in 5G 
technology.
    These companies have already invested billions of dollars 
in 4G LTE, and as they continue to invest significantly in 4G 
and 5G, it is important that we in Congress help facilitate 
innovation by fueling the spectrum pipeline and removing 
regulatory barriers to deployment.
    Laying a foundation for the 21st century wireless economy 
is essential, and I thank our panelists for being with us 
today.
    Thank you, Madam Chair.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Doyle, you are recognized for 5 minutes.

OPENING STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. Thank you, Madam Chair, for holding this 
hearing, and thanks to the witnesses for coming before us 
today.
    Before I discuss this hearing and the important issues 
surrounding spectrum policy, I want to talk about something 
that has been on the minds of many Americans as well as my own 
mind recently, and that is privacy. Last week Congress rolled 
back critical regulatory protections that prohibited ISPs from 
selling individuals' browsing histories without their consent.
    Congress didn't act with much deliberation. We didn't hold 
hearings or mark up any bills. We ran through legislation under 
the Congressional Review Act--a blunt, draconian instrument--to 
smash these rules, the only real legal protections that 
prevented internet service providers from using and abusing our 
data.
    Recent public polling has shown that 74 percent of all 
Americans oppose this legislation. Last weekend when I was back 
in my district I went to a number of public events, and I 
couldn't find a single person who supported this bill or 
eroding our privacy rights. Not one.
    I encourage my colleagues on both sides of the aisle, when 
they go home over the next two weeks, ask their constituents if 
they want their internet service provider selling their 
browsing histories. I believe my colleagues on the other side 
of the aisle, and the telecomm industry, have made a grave 
mistake here.
    I see we have a representative from one of the associations 
that led the charge for this bill. I am extremely disappointed 
that an organization representing the wireless industry, which 
this committee has worked hard to support and foster, would act 
in such a selfish and irresponsible way. I expect more for you 
and your members, and the American people expect more from you 
and your members.
    It is not lost on me or members of this subcommittee that 
your association support for the CRA means that no Federal 
agency can stop your members from selling people's information. 
Believe me when I say that my constituents, your customers, are 
not happy about this.
    That being said, I do look forward to the testimony of our 
witnesses, particularly Ruckus Wireless. I understand that you 
have some equipment deployed in Pittsburgh City Hall. I 
appreciate the ingenuity that your company is bringing to these 
types of problems. As this committee works to free up more 
spectrum, we need to appreciate that not every band that can be 
made available will fall into the traditional labels and 
understanding of licensed and unlicensed.
    We need entrepreneurs and innovators willing to take risks 
and experiment with new bands and new types of network. Your 
comments and your company's work in the Citizens Broadband 
Radio Service band is a great example of this attitude. We 
shouldn't forget that many of the unlicensed bands in use today 
by Wi-Fi and other services were once considered junk bands, 
and now these bands are responsible for moving 60 percent of 
all wireless data.
    I believe it is incumbent upon Congress to support 
unlicensed spectrum and continue to create space for 
innovation. With that, I will yield the remainder of my time to 
Ms. Matsui.
    Ms. Matsui. Thank you, Mr. Doyle, for yielding me time, and 
I would like to thank the witnesses for being with us today.
    Today's hearing topic is critical to our Nation's digital 
future. Spectrum is invisible infrastructure that fuels our 
21st century economy, and it is a finite resource. And as 
demand continues to explode, we need to encourage efficiency to 
put this resource to its best and highest use.
    That is why I joined my colleague, Congressman Guthrie, 
yesterday to reintroduce the Federal Spectrum Incentive Act. It 
would provide incentives to Government agencies to free up some 
of their existing spectrum bands for commercial use.
    I look forward to continuing to work with my colleagues on 
a bipartisan basis on an all-of-the-above strategy that 
provides new opportunities for licensed and unlicensed 
spectrum, sharing and clearing spectrum bands. We will need 
every tool at our disposal, so the United States leads the 
world as we look to 5G networks. We have always been a nation 
of innovators, and our spectrum policies should be no 
exception.
    Thank you, Mrs. Chairman. Is there anyone else you would 
like to yield to, Mr. Doyle?
    Mr. Doyle. Would anyone else like time? If not, Madam 
Chair, I will yield back.
    Ms. Matsui. Thank you.
    Mrs. Blackburn. The gentleman yields back.
    The chairman of the full committee, Mr. Walden, you are 
recognized for 5 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Madam Chair, I appreciate the hearing today on 
these very important issues relating to the wireless economy. I 
want to thank our witnesses for being here.
    And I also--I hadn't planned to really talk on this, but I 
think it is time to set the record straight about the whole 
issue of privacy because, in my book, it has been horribly 
spun, about ISP selling your privacy.
    Let's talk about that for a minute. We wouldn't be in this 
position if the Obama administration hadn't forced the FCC to 
treat the internet as an old-style common carrier. That removed 
any protections people had from the FTC, Federal Trade 
Commission, and then the FCC, under Chairman Wheeler, said, 
``Well, there is nothing to worry about here because we still 
have various sections of Federal law that protect people. So 
don't worry, don't worry, don't worry.'' And then they decided, 
well, maybe we should write rules, which, by the way, were 
never implemented. That is a fact.
    Second fact. The administration--this and others--has gone 
around Europe when we were talking about the safe harbor 
provisions arguing there is no need for regulatory authority in 
this space, and so we have got it all covered.
    Third fact. The people who you search through on your 
search history are companies like, oh, shall I say Google has 
an 85 percent market share of search, Facebook, Amazon. How do 
you think they make their money? By monetizing what you do 
online. They were never covered by this rule to begin with. 
Period. Period. That is where the searches are.
    My friend from Pennsylvania, I am glad you are on the 
subcommittee, but, boy, we have got to have some education here 
because that is where the searches are. That is not covered by 
the rule that you embrace that you are upset that we repealed, 
right? There is no difference there. Are you telling me that 
the edge providers were covered by that rule? Yes or no.
    Mr. Doyle. The edge providers are regulated by the FTC.
    Mr. Walden. They are not covered by the rule that was 
repealed.
    Mr. Doyle. When Verizon sued and you can no longer classify 
ISPs out of Title 1 and they were classified in Title 2, there 
was no jurisdiction over the ISPs.
    Mr. Walden. Well, reclaiming my time, the ISPs have made it 
very clear they have policies that aren't covered. You have the 
option to opt out. I am just telling you that this is not what 
it has been made out to be. The former FTC Commissioner, the 
current FTC Commissioner, the Chairman of the FCC, have all 
made this clear.
    It is really disappointing. I mean, there are all kinds of 
folks that have weighed in on this saying that is just not the 
case, that we are exposing people to this. By the way, these 
rules were never in effect. They were never in effect.
    I would yield to my friend from Illinois for further 
comment.
    Mr. Shimkus. I just will read part of a column by the 
Chairman of the FCC: ``But in 2015, the FCC decided to treat 
the Internet like a public utility, taking away the FTC's 
ability to police the privacy practices of broadband providers. 
This shifted responsibility from the agency with the most 
expertise handling online privacy, the FTC, to an agency with 
no real experience in the field, the FCC. As we feared, this 
2015 decision has not turned out well for the American people.
    ``During the Obama administration, the FTC concluded that 
`any privacy framework should be technology neutral' because 
`ISPs are just one type of a large platform provider' and 
`operating systems and browsers may be in a position to track 
all, or virtually all, of the consumer's online activity to 
create highly detailed profiles.'
    ``But the FCC didn't follow this guidance. Instead, it 
adopted rules that would have created a fractured privacy 
framework under which ISPs would have been subject to one 
standard and content providers,'' which Mr. Walden was talking 
about, ``would have been subject to another. The Obama FTC, in 
a unanimous bipartisan comment, criticized this approach as 
`not optimal.' In Washingtonspeak, that's a major rebuke.''
    So, I mean, we can politicize this. The reality is, we made 
a great decision last week. I will stand by that. And I yield 
back to the chairman.
    Mr. Walden. I will just close with this from TechFreedom. 
Berin Szoka wrote, ``The FCC's rules were unwise and 
unnecessary. The FCC will soon return broadband privacy 
policing to the Federal Trade Commission, where it belongs, 
like all online privacy. In the meantime, enacting this CRA 
will simply mean the FCC will police broadband privacy case-by-
case--just as it had done under Democratic leadership after the 
FCC's 2015 Open Internet Order deprived the FTC of its consumer 
protection power over broadband by reclassifying broadband as a 
common carrier service.''
    And with that, I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Pallone, you are recognized for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Madam Chairwoman. Let me say, no 
one believes this Republican mumbo jumbo about the FCC, about 
clean air, about the Affordable Care Act.
    You go home--we are going to have a break for the next two 
weeks, and I would like to see what happens when you go to the 
town meetings and you say that you are going to repeal the 
Affordable Care Act and you are going to somehow put something 
in place that is going to be helpful to the American people, 
you are going to get rid of the Clean Air Act and environmental 
protections, but don't worry, because somehow we are going to 
protect the American people.
    We are going to get rid of privacy under the FCC, and Space 
last Friday, when they asked him about the FCC privacy rule, 
said, ``Well, don't worry, because the President is going to 
get rid of net neutrality next.''
    The bottom line is: Everyone understands when you go home 
that the Republicans are trying to do harm to every health, 
safety, privacy, environmental protection that exists in the 
Federal Government, and that that is what they are all about. 
There is no legislative agenda. There is no tax reform. There 
is no infrastructure bill.
    All there is, is an effort unilaterally through executive 
orders and CRAs to tear down everything that the American 
people care about and everything that Democrats, and even 
Republicans in the past, would try to do to help the American 
people.
    You know, we could talk here all day about FCC versus FTC. 
You can talk about, you know, oh, ``We don't need the Paris 
agreement, we don't need the Clean Power Plan because we are 
going to do other things that protect the environment.'' Nobody 
believes it. The fact of the matter is that this President ran 
on a platform saying he was going to help the little guy and he 
was going to, you know, work against the corporate interests 
and Wall Street, and he does just the opposite; hurts the 
little guy every day unilaterally with unconstitutional 
executive orders that probably break the law. You have got to 
sue him, and then he says, ``Well, sue me and we will see you 
in court.''
    And that is what we are seeing here. That is what we are 
seeing here, and it is very, very sad. It is very sad.
    I have some time left. I would like to yield some time to 
the ranking member, Mr. Doyle, and then to Ms. Clarke.
    Mr. Doyle. Thank you.
    Let me say to the chairman, who is my friend--and I am glad 
to be on this subcommittee here with you, Mr. Chairman--let's 
take a little walk down memory lane. But let me say to you, 
first, that perhaps if we had some hearings on this before we 
jammed a CRA down everyone's throat, we might have been able to 
get more of these issues out in the open.
    But when the FCC tried to classify internet service 
providers under Title 1, Verizon sued, and the courts ruled 
that they couldn't be classified under Title 1. So that is how 
they got reclassified under Title 2. And when that happened, 
the FTC no longer had authority to regulate the ISPs.
    So what the FCC did was put forth a rule. It took 7 months 
for the rule to be adopted. It was adopted, by the way, in mid-
afternoon in October, not at midnight before the expiration of 
the Obama presidency as has been said by many members of this 
committee, and the rule said three basic things. We talk about 
this heavy-handed rule of the Government. It said three things.
    It says if you are going to monetize and use someone's 
data, ask for permission. Ask if you--and then if America says, 
``Yes, you can use my data,'' then you can use it. The second 
thing it said is secure people's data. Take reasonable measures 
to secure people's data. They didn't even define what 
``reasonable'' was. That was left up for the ISPs to do. And, 
third, if there was a breach in someone's data, that you notify 
them.
    Those were the three basic things that this rule said. Now, 
somehow that become a very heavy-handed situation. This isn't 
about this rule. This is about----
    Mr. Walden. Will the gentleman yield?
    Mr. Doyle [continuing]. Whether the FCC has any 
jurisdiction over these ISPs. It is a fight over who has----
    Mr. Walden. Will the gentleman yield?
    Mr. Doyle [continuing]. Jurisdiction. But to somehow say 
these rules were heavy-handed or they were going to stifle----
    Mr. Walden. Will the gentleman yield?
    Mr. Doyle [continuing]. Innovation--I will in a second when 
I am done--is just not a true statement. And I will yield to my 
friend.
    Mr. Walden. I appreciate that. I know this is a 
controversial subject. Let me just suggest, though, on one 
point. In the Brand X case, which you reference as the Verizon 
case, actually, the Supreme Court affirmed that Title 1 could 
be used for broadband classification.
    Mr. Doyle. That is not how the case came out. That is not 
the case we are referring to.
    Mr. Walden. I am sorry. You are right.
    Mrs. Blackburn. The gentleman's time has expired.
    Mr. Walden. They are two different ones. The Brand X case, 
though----
    Mrs. Blackburn. The gentleman's time has expired.
    Mr. Walden [continuing]. Was about----
    Mr. Doyle. Yes. Well, that is not the one I was 
referencing.
    Mrs. Blackburn. The gentleman's time has expired, and we 
will move forward with our hearing. Sounds like somebody needs 
a glass of water down there. Maybe too much mumbo jumbo for him 
going on, so we will get him some water.
    So this concludes the Member opening statements. I would 
remind everyone that, pursuant to committee rules, all Members' 
opening statements will be made a permanent part of the record.
    And I welcome our witnesses to be here today and talk about 
spectrum. That is going to be our focus, and we are so looking 
forward to your input. Our witnesses, Mr. Bergmann, Mr. Scott 
Bergmann, who is the vice president of Regulatory Affairs for 
CTIA; Mr. Dave Wright, who is the director of Regulatory 
Affairs and Network Standards for Ruckus Networks; Ms. Jennifer 
Manner, who is the senior VP of Regulatory Affairs for EchoStar 
Corporation and Hughes Network Systems. And I do have her book 
up here. I looked through it. I was pleased to get the 
opportunity to look at it. Mr. Jared Carlson, who is the vice 
president of Government Affairs and Public Policy for Ericsson.
    We appreciate that each of you are here today, and we will 
begin with 5 minutes for your opening statement. Mr. Bergmann, 
you are now recognized for 5 minutes.

   STATEMENTS OF SCOTT BERGMANN, VICE PRESIDENT, REGULATORY 
 AFFAIRS, CTIA; DAVID A. WRIGHT, DIRECTOR, REGULATORY AFFAIRS 
  AND NETWORK STANDARDS, RUCKUS WIRELESS; JENNIFER A. MANNER, 
SENIOR VICE PRESIDENT, REGULATORY AFFAIRS, ECHOSTAR CORPORATION 
AND HUGHES NETWORK SYSTEMS; AND JARED CARLSON, VICE PRESIDENT, 
      GOVERNMENT AFFAIRS AND PUBLIC POLICY, ERICSSON, INC.

                  STATEMENT OF SCOTT BERGMANN

    Mr. Bergmann. Chairman Blackburn, Ranking Member Doyle, and 
members of the subcommittee, on behalf of CTIA, thank you for 
the opportunity to speak about how forward-looking spectrum and 
infrastructure policy can facilitate the 21st century wireless 
economy.
    The U.S. wireless industry is a powerful driver of economic 
growth. Our members have invested over $300 billion over the 
last 10 years deploying 4G and are responsible for providing 
over 4 million jobs. Consumer and business use of mobile 
broadband continues to soar, increasing 25 times since 2010 and 
expected to increase another 5-fold by 2021. And we are about 
to have a revolutionary breakthrough in the next generation of 
wireless, 5G.
    5G networks will be up to 100 times faster and five times 
more responsive than today's networks. They will support 100 
times more wireless devices from beacons to wearables. The U.S. 
has the ability to lead in 5G, but the global competition is 
fierce. China, Japan, South Korea, and the EU are all racing to 
be first making spectrum available and streamlining siting 
regulations.
    Winning the 5G race means not only faster speeds, greater 
value, and increased choice for U.S. consumers, but empowering 
our businesses, our schools and hospitals, with the tools that 
they need to lead the world. With the right policies in place, 
the U.S. wireless industry will invest $275 billion over the 
next 10 years, adding half a trillion dollars to our economy 
and creating 3 million new jobs, with more than 1,300 in 
Clarksville and more than 2,800 in Pittsburgh.
    5G will enable a new generation of smart communities and 
unlock the Internet of Things. From mHealth to smart grids and 
self-driving cars, 5G will unleash innovation and growth for 
industries across our economy, unlock trillions of dollars of 
economic benefits, and help save thousands of lives.
    Our 5G future depends on this subcommittee's continued 
focus on securing a steady new supply of spectrum and 
developing modernized approaches to infrastructure siting. 
Licensed spectrum, in particular, is the key input in mobile 
networks and generates significant growth in jobs. In the near 
term, we must ensure timely access to the spectrum made 
available through the successful incentive auction.
    This was the second-largest auction in FCC history, and we 
support a seamless repacking process to achieve the FCC's 39-
month schedule so that 5G is not delayed. Planning for the 
spectrum pipeline now is more essential than ever. For the 
first time in years, there are no additional spectrum auctions 
scheduled. CTIA supports the Senate's MOBILE NOW legislation, 
which recognizes the key role that spectrum and infrastructure 
policy play in facilitating the next generation of wireless.
    This subcommittee has the opportunity to build on MOBILE 
NOW and establish a robust spectrum pipeline and modernized 
framework for wireless siting. This will fuel investment, drive 
economic growth, and enable the U.S. to win the global race for 
5G leadership.
    It takes on average 13 years to reallocate spectrum for 
wireless use. This underscores the importance of starting 
today. We encourage the subcommittee to review Federal uses of 
spectrum, consider ways to encourage agencies to use spectrum 
more efficiently, and provide a clear plan for additional 
licensed spectrum across a wide range of frequencies.
    Finally, Congress needs to update Federal, State, local, 
and travel wireless siting policies, which were designed for 
yesterday's wireless networks, not today's or tomorrow's. The 
small cells that will be essential for 5G are far less 
intrusive, the size of a pizza box or a lunch box, and will be 
deployed by the hundreds of thousands.
    Today's outdated siting policies deter investment and 
threaten the benefits that new technologies can deliver. MOBILE 
NOW includes some important Federal siting provisions that CTIA 
supports, and we believe that more can be done to address State 
and municipal siting reforms, including addressing burdensome 
local permitting with reasonable shot clocks and deemed granted 
remedies; ensuring access to municipal-owned rights-of-way and 
poles, with charges that are reasonable and cost-based; 
modernizing our historic preservation and environmental review 
processes, particularly with respect to small cells; and 
directing agencies to speed deployment on Federal lands and 
buildings, with a continued focus on spectrum and 
infrastructure will enable wireless providers to invest, create 
jobs, and lead the world in 5G.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Bergmann follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. Thank you, sir.
    Mr. Wright, you are recognized for 5 minutes.

                  STATEMENT OF DAVID A. WRIGHT

    Mr. Wright. Chairman Blackburn, Ranking Member Doyle, and 
members of the subcommittee, thank you for inviting me to 
provide Ruckus Wireless' perspectives on the central role that 
wireless technologies play in our 21st century economy.
    The United States is a global leader in the development and 
commercial utilization of wireless technologies. Wireless 
innovation and investment has resulted in economic growth for a 
broad range of U.S. industries, produced amazing new 
opportunities for American workers and citizens, and made 
immense contributions to our gross domestic product.
    Ruckus is a leading supplier of wireless infrastructure 
solutions, providing products and services to both enterprise 
and service provider customers. Our products support wireless 
growth in a wide variety of markets, with noted leadership in 
connected cities, hospitality, education, healthcare, and high 
density public venues.
    You may have utilized our Wi-Fi networks at locations such 
as Hardin Hospital in Savannah, Tennessee, Pittsburgh City 
Hall, with the Link New York City kiosks in the Bronx, the San 
Jose airport, Charter Communications' deployments in great 
cities like Austin, Tampa Bay, and my home city of Durham, 
North Carolina.
    In addition to our success with Wi-Fi, Ruckus is also 
developing LTE systems, which will utilize the 3.5 gigahertz 
CBRS band. Ruckus supports a balanced spectrum policy, which 
makes adequate licensed, unlicensed, and coordinated shared 
spectrum available for investors and consumers. I will focus on 
unlicensed and coordinated shared spectrum today.
    Wi-Fi is the default wireless broadband network for 
Americans in their homes, at the office, staying in a hotel, 
and while flying on a commercial aircraft. To put this in 
perspective, Cisco reported that 8400 petabytes of traffic was 
transmitted over Wi-Fi per month in the U.S. during 2015. This 
is 16.8 times the amount of traffic that was transmitted over 
cellular.
    The total annual U.S. economic activity associated with 
unlicensed spectrum was valued at $222 billion in 2013 and is 
estimated to have increased to over $547 billion today. To 
support a balanced spectrum policy that will support continued 
investment, Congress and regulators will need a broad range of 
spectrum designation and management options in their policy 
toolkits.
    Ruckus offers the following recommendations with a focus on 
unlicensed and new dynamic models. First, Ruckus recommends 
that Congress and the FCC augment current unlicensed spectrum 
resources because, number 1, the current unlicensed 
designations were created with yesterday's Wi-Fi needs in mind. 
We need new designations with larger, contiguous portions of 
spectrum to meet the needs for today and tomorrow's Wi-Fi.
    Number 2, LTE technologies are about to enter these already 
congested, unlicensed bands.
    Number 3, our unlicensed bands will increasingly connect 
the vast majority of the billions of IoT devices that are 
coming into the market. All of this adds up to a looming 
challenge. A Quotient Associates report issued in February 
forecasts a gap of between 220 and 620 megahertz of unlicensed 
spectrum by 2020, growing into the future. And, unfortunately, 
the reality is that there have been no new designations of 
additional mid-band unlicensed spectrum since 2002.
    Given the sharply increasing demands for unlicensed 
spectrum, we strongly recommend expeditious action to identify 
additional designations, especially in the mid band. We believe 
the 5925 to 7250 megahertz range is one of the best candidate 
bands. We also support the designation of additional spectrum 
above 10 gigahertz for unlicensed use.
    Second, Ruckus recommends that Congress and the FCC make 
use of a powerful new spectrum management tool to produce more 
value for the economy; namely, coordinated shared spectrum or 
CSS. CSS is a general term used to describe dynamic spectrum 
management frameworks that move beyond the static designation 
paradigm to free more value.
    CSS frameworks differ from unlicensed frameworks in that 
there is a coordination requirement to access the spectrum. 
They differ from licensed frameworks in that the spectrum 
managed by CSS can be shared by a multitude of users with 
similar or different use cases and can accommodate both 
exclusive and permissive uses.
    The leading example of CSS is the CBRS framework, as 
currently applied to the 3.5 gigahertz band in the U.S. 
Industry organizations such as the Wireless Innovation Forum 
and the CBRS Alliance have formed to commercialize the band. 
Both of these organizations have a diverse set of members 
representing the cellular, cable, enterprise, and other sectors 
of the economy.
    Permissive use of LTE and CSS bands unlocks new deployment 
options and business models. We believe this will be key to 
meeting the challenges of both in-building and rural coverage 
by allowing private and public entities to deploy and operate 
their own LTE networks without having to acquire rights to 
exclusive licensed spectrum.
    Another expected use case is CBRS permissive access for 
industrial IoT services. If the Commission reconsiders the CBRS 
rules for 3.5 gigahertz, it is critical that any changes be 
done in a manner that does not negate industry-significant 
investments and efforts to date, nor delay the commercial 
availability of the band.
    Finally, Ruckus recommends that the subcommittee support 
the MOBILE NOW bill. The bill includes the important commitment 
to add 255 megahertz of new spectrum below 6 gigahertz. We 
would welcome and make good use of any additional unlicensed 
spectrum. We do ask that Congress and the FCC consider a 
balanced approach to licensed and unlicensed spectrum in its 
implementation.
    In the worst-case scenario, the bill would require the FCC 
to designate only 100 megahertz for unlicensed. This would 
vastly underresource Wi-Fi and not even meet half of the lowest 
estimated gap identified in the Quotient Report. Ruckus also 
supports MOBILE NOW's specifically unlicensed sections.
    Thank you again for the opportunity to testify, and I look 
forward to your questions.
    [The prepared statement of Mr. Wright follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentleman yields back.
    Ms. Manner, you are recognized for 5 minutes.

                STATEMENT OF JENNIFER A. MANNER

    Ms. Manner. Thank you. Chairman Blackburn, Ranking Member 
Doyle, and members of the subcommittee, thank you for inviting 
me here today.
    With the recent launch of our latest broadband satellite, 
EchoStar XIX in December, we are at an exciting time as we 
bring the latest in satellite broadband services to the 
American people, including in rural and remote areas.
    I am here on behalf of EchoStar and its subsidiary, Hughes, 
the largest satellite broadband operator in the United States, 
where I am senior vice president of Regulatory Affairs.
    As Congress prepares to consider legislation to encourage 
the deployment of broadband infrastructure, it is important to 
remember the critical role of satellites as a provider of 
services and a significant contributor to the U.S. economy.
    EchoStar operates a satellite fleet of 26 satellites, many 
of which are constructed by U.S. manufacturers, some are 
launched by U.S. launch providers, and we employ almost 2,000 
workers, including at our U.S. Fleet Operations Center and 
manufacturing facility for ground infrastructure. We also 
employ local installers, all adding important U.S. jobs.
    In addition, our satellite network provides services across 
the country, no matter how rural or remote. Satellites are 
particularly adept at providing cost effective broadband 
services to consumers where it is too expensive to deploy 
terrestrial infrastructure.
    Satellite capability continues to evolve to meet consumer 
needs, including ensuring consumers in the most remote regions 
of the United States have access to comparable broadband 
services to urban residents. Since 2007, our broadband services 
have met or exceeded FCC-defined broadband speeds.
    With the launch of EchoStar XIX, we have broadband speeds 
of 25/3 megabits and more at prices that are comparable to 
terrestrial offerings. There is also increased demand for 
capacity in spectrum. To address this, we have launched 
additional satellites, utilized additional spectrum, and, of 
course, developed innovative technology. In 2008, our first 
broadband satellite had a capacity of 10 gigabits. EchoStar XIX 
has a capacity of 220 gigabits.
    However, the only real way to achieve meaningful increases 
in capacity for satellite in all wireless services is to access 
more spectrum. In doing so, Congress and the FCC must adopt the 
principle of technology neutrality, ensuring different 
platforms can compete to meet the full range of consumer 
demands.
    A little more than a decade ago, spectrum was largely 
allocated to different uses on an exclusive basis. While 
spectrum-sharing occurred, it was very limited. However, the 
demand for spectrum continues to proliferate including for 
satellite, requiring the adoption of new methods of spectrum 
allocation. And as we move towards 5G, creative means of 
spectrum allocation will be required to meet the demands of 
complementary services.
    Congress and the FCC must enable competition among 
platforms by ensuring that no single platform is favored. If 
spectrum is cleared, it should not be made available for one 
technology but should be split in a manner that takes into 
account the role of each platform as well as consumer demand. 
The same principle must be followed for spectrum-sharing. Where 
there is an incumbent, sharing criteria should be reasonable 
and enable both services to grow.
    Terrestrial deployment will be focused mostly in the urban 
portions of country. Accordingly, there is unlikely to be a 
significant demand for dense terrestrial wireless networks in 
lower population areas, which makes those areas appropriate for 
greater satellite deployment. This does not mean that portions 
of the country will not receive wireless services. It simply 
ensures that both platforms can grow and deploy to meet 
consumer needs across the country.
    Finally, until advanced sharing technology are proven, 
sharing must be limited between widely deployed services. We 
need to retain some exclusive spectrum.
    The 21st century wireless economy is booming. With 
continued U.S. leadership, the future is very bright. Congress 
must ensure all technologies are provided the resources 
necessary to meet the needs of consumers throughout the 
country. By allocating spectrum to enable competition among 
platforms, we can ensure that consumers, not the Government, 
are able to pick the best technology for their needs.
    Further, we will ensure that all Americans, including those 
in rural and remote parts of the United States, benefit from 
the 21st century wireless economy.
    Thank you, and I welcome any questions.
    [The prepared statement of Ms. Manner follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. Thank you.
    Mr. Carlson for 5 minutes.

                   STATEMENT OF JARED CARLSON

    Mr. Carlson. Thank you, Chairman Blackburn, Ranking Member 
Doyle, and good morning to all of the members of the committee.
    My name is Jared Carlson, and I lead Ericsson's 
legislative, regulatory, and industry efforts for our $6 
billion North American business. On behalf of the thousands of 
Ericsson employees based here in the United States, it is an 
honor to be here.
    At Ericsson, we all share the subcommittee's mission to 
make it easier for every American to communicate. Our vision is 
one of a network society where everyone and everything is 
connected. Our solutions, which range from mobile broadband to 
cloud services to network design and management, serve 
customers across the globe in 180 countries.
    Fully 40 percent of the world's mobile traffic continues to 
be carried over Ericsson's networks, and at the heart of 
everything we do is innovation. We invest billions of dollars 
every year in research and development, which has led to over 
42,000 patents and key discoveries. In one of our labs back in 
the 1990s, the peer-to-peer wireless technology known as 
Bluetooth was invented.
    Today Ericsson continues to be an integral part of the 
broadband ecosystem, which is made possible by access to 
sufficient spectrum, something that remains in very short 
supply and an even higher demand.
    To truly understand the extent of that demand, Ericsson 
performs in-depth data traffic measurements in mobile networks 
from the world's largest installed base of live networks. These 
measurements are then captured in the Ericsson mobility report, 
which we issue several times a year. Our most recent report 
yielded some very interesting trends I would like to share.
    First, the total mobile data traffic is expected to rise at 
an annual growth rate of 45 percent, resulting in an 8-fold 
increase by 2022. Second, Smartphone traffic will grow around 
10 times and will account for roughly 90 percent of mobile data 
traffic by the end of 2022. Third, globally, mobile data 
traffic grew 50 percent year over year in 2016. Fourth, mobile 
video traffic, led by YouTube, remains the largest contributor 
to traffic volumes and will grow 50 percent annually through 
2022 when it will account for 75 percent of all mobile data 
traffic.
    And, finally, over 90 percent of the world's population 
will be covered by mobile broadband networks by 2022. All of 
these metrics, and the others I included in my prepared 
testimony, reinforce the reality we all know too well that 
demand and need for mobile broadband continues to grow at 
exponential rates.
    Our findings also continue to lead us to a central 
question: where can more spectrum be found? From our vantage as 
a global leader in building networks, we believe there are a 
few key points to keep in mind as we seek to answer that 
question.
    One, technology cannot satiate demand for capacity alone. 
Two, clearing spectrum for licensed use remains the best option 
available today. Three, Federal spectrum holdings continue to 
be an excellent potential source for spectrum. And, four, 
barriers to broadband infrastructure deployment remain and must 
be removed where possible.
    The observations in the Ericsson Mobility Report also 
underscore an important idea about the future of our industry. 
There is no limit to the potential of emerging technologies 
with 5G leading the way. In that space, we are currently 
working with operators and industry partners to tap into the 
$582 billion of global 5G opportunity that will come over the 
next 5 years. Interest in launching pre-standard 5G networks 
has increased so dramatically that many deployments have 
already been announced in several markets, including the U.S.
    Or consider the Internet of Things. We believe there will 
be roughly 29 billion connected devices by 2022, 18 billion of 
which will be related to IoT. These include connected cars, 
machines, meters, wearables, and other consumer electronics. So 
we are working with our customers to avoid network congestion 
by managing, monitoring, and analyzing these devices in real 
time.
    How we do that in a way that ensures efficiency and 
security will remain a key question as the wireless broadband 
ecosystem continues to evolve. And that is where important 
efforts taken by you and by this committee and by Congress come 
into play. The Spectrum Act of 2012 paved the way for the 
auction of critical spectrum in the broadcast, AWS 093, and H-
Block bands.
    And now Congress has another opportunity to act again with 
the MOBILE NOW Act. The MOBILE NOW Act is comprehensive 
legislation that anticipates and promotes the rise of 5G 
technology. It sets policy goals for spectrum access and eases 
the burdens we see in the field every day when we deploy 
network infrastructure, and it calls for the critical spectrum 
needed, 500 megahertz by 2020, for commercial use by easing the 
demands on our networks as consumers and IoT devices access 
more and more data-rich services.
    Quite simply, the MOBILE NOW Act represents another big 
step Congress can take to greatly benefit our Nation's spectrum 
pipeline and telecommunications infrastructure. For that 
reason, I urge the committee to support its consideration and 
its passage.
    Looking ahead, the work that remains remains challenging 
but incredibly exciting, too, and I am privileged to work in an 
industry that is not only constantly adapting and evolving but 
also transforming how people and things are connected, 
transforming the ways we tackle our most complex issues, 
transforming the efficiency of schools, cities, and businesses, 
but, most of all, transforming lives for the better.
    Thank you again, Chairman Blackburn, for the invitation to 
be here today, and I look forward to answering any questions 
the subcommittee has.
    [The prepared statement of Mr. Carlson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. I thank the gentleman for the testimony. 
This concludes our testimony, and we will begin with our 
questions and answers. And, Mr. Carlson, I am going to come 
right to you, since you were the last one to speak.
    Let's talk about unlimited data plans because as we look at 
spectrum and the need for spectrum, we are always thinking in 
terms of how this affects consumers and how it affects the 
marketplace. And we have a lot of consumers that do enjoy these 
unlimited data plans. They utilize a lot of that service.
    Now, you are talking about an 8-fold increase by the time 
we get to the end of 2022. So wireless providers, if we don't 
go ahead and make more spectrum available, what will we see 
happen to those unlimited data plans that people appreciate, 
enjoy, and utilize?
    Mr. Carlson. Thank you for the question. I think it was 
implied in your question that we can't go on the way we are 
going without more spectrum made available. I benefit myself 
from an unlimited data plan, and I love it and would love to 
see more such plans, and that just doesn't happen without the 
creation or without the unleashing of more spectrum for 
licensed use.
    And in addition, you know, one can see that they will have 
to be more expensive. There is just no way that you maintain 
the current use and the current demand on networks at the 
present rate unless you start charging people more for the 
services that they enjoy today.
    So, you know, one of the things that that the MOBILE Act 
does that we appreciate is unleash critically more spectrum in 
the mid-tier bands and in upper level bands that we think are 
going to be crucial going forward.
    Mrs. Blackburn. Or either kept those plans, which of course 
affects our small businesses tremendously.
    Ms. Manner, let me come to you. You mention in your 
testimony the satellite industry has seen 2,400 percent growth 
in download speeds over the past decade. So do you anticipate 
that this growth will continue, or are there limits to the 
speeds that can be achieved through the satellite technology?
    Ms. Manner. Thank you so much, Madam Chair, for the 
question. And I just want to be specific, that was actually 
with regard to our system and not the satellite industry as a 
whole, so----
    Mrs. Blackburn. OK.
    Ms. Manner [continuing]. But I think the answer is you will 
continue to see growth, both through additional technology 
developments--we have labs right outside DC in Maryland where 
we work very hard to develop new technologies, including with 
our satellite manufacturers here in the United States.
    But, more importantly, we do need spectrum at some point. 
There is a limit to what technology alone can do, so we are 
going to need access to additional bands, especially in the 
upper millimeter wave bands. Thank you.
    Mrs. Blackburn. OK. Talk to me a little bit about how the 
speeds that you achieve through satellite compare to other 
technologies.
    Ms. Manner. So, thank you, Madam Chairman. Our company in 
particular primarily focuses on unserved and underserved 
markets, and in those markets where there is limited choice we 
are, you know, on par with DSL and other services that are 
available. Unfortunately, satellite, because of the way it is 
built, it is a single satellite in the sky.
    In our case, we have a network of three. We don't have 
sufficient capacity to offer the sorts of speeds that you might 
see from fiber, but we are certainly comparable in the markets 
where we compete. Thank you.
    Mrs. Blackburn. Thank you. Mr. Doyle, I will yield back my 
time and recognize you for 5 minutes.
    Mr. Doyle. Thank you, Madam Chair.
    Mr. Bergmann, welcome. We are glad to have you here today. 
Let me ask you, the MOBILE NOW Act addresses the need for more 
spectrum, which is one of the two critical inputs into wireless 
communications. The other critical input is back call, the 
connection between a wireless carrier's tower, base station, or 
small cell and the underlying company in each market.
    The FCC has found that up to a third of the cost of 
operation of a tower or base station is the cost to back call. 
Later this month the FCC is poised to vote on a BDS reform 
order that would prematurely deregulate business status service 
prices, potentially driving up the price of back call for a 
number of CTIA members.
    I want to ask a question. Do you believe that higher back 
call prices for your members would delay 5G deployments?
    Mr. Bergmann. So thank you, Ranking Member Doyle. So, 
obviously, infrastructure is one of the key elements in 
wireless networks, and it is very much a focus for us as we 
think about the next generation. And so back call is a key part 
of that, having enough fiber to make sure that we can deliver 
the capacity that we need in addition to spectrum.
    We have been very focused on siting as one of the key 
issues in terms of making sure that we have sufficient back 
call out there, and so this committee's consideration of the 
infrastructure modernization provisions in MOBILE NOW is really 
important. The dig once concept is a very important concept, 
but there is more, frankly, that this committee can do in terms 
of trying to address burdensome, local permitting, and siting 
obligations that add cost, add delays, and make it more 
difficult to offer those next generation services.
    Mr. Doyle. But do you support higher back call prices on 
your members?
    Mr. Bergmann. We are always trying to find ways to drive 
down costs. As you may know, CTIA has members with different 
views on how those services should be regulated, but we are 
very focused on trying to make sure that participants can 
deploy infrastructure, including back call out in the 
marketplace, and trying to find ways to remove barriers to 
that, wherever possible.
    Mr. Doyle. Thank you. Let me ask you and Mr. Wright, there 
has been a lot of interest in low power, wide area networks, 
using both licensed and unlicensed spectrum. Major carriers and 
small companies are working to deploy these networks and 
technologies, and I have read that some of these networks would 
use as little as 1 to 2 megahertz.
    What impact do you see these new types of networks having 
on the Internet of Things and smart cities, particularly 
considering their low bandwidth and their small spectrum 
footprints? And what are some of the ideal bands for these 
types of networks? Mr. Wright?
    Mr. Wright. Ranking Member Doyle, as Mr. Carlson mentioned 
during this oral testimony, the Ericsson Mobility Report in 
2016 has estimated that I believe 18.1 billion IoT devices will 
be connected in 2022. They further go on to say that, of those 
18.1 billion devices, 88 percent of them will be connected over 
unlicensed spectrum.
    So we certainly believe that unlicensed is going to play a 
critical role in meeting the demand for the surge in IoT 
devices that has been growing from essentially a 2016 level of 
5.6 billion to the 18.1 billion number over the next 6 years.
    In terms of what spectrum is most suitable for that, 
frankly, I think there is opportunities, certainly in the low 
and the mid band and potentially in the high bands as well. We 
obviously have the spectrum that was recently made available 
below 1 gigahertz through the incentive auction. I think that 
is suitable.
    We have technologies today that are being used in the mid-
band unlicensed, so certainly Wi-Fi, and the Ericsson number 
certainly would include Wi-Fi but also technology such as IGB 
and Bluetooth and LoRa and things like this.
    So there is a range of unlicensed technologies in the mid 
band. That is where the vast majority of the deployments and 
utilization is happening today, and that is where we need 
additional allocations.
    Mr. Doyle. Mr. Bergmann, how do you see these low power, 
wide area networks? What kind of impact do you think they can 
have?
    Your microphone is off. Go for it. Thank you.
    Mr. Bergmann. So the sorts of networks that you all were 
discussing rely on unlicensed spectrum, and we think that is an 
important component of an overall spectrum plan. Clearly, 
licensed spectrum is an essential part, but we would encourage 
this committee to look at a balance of both licensed and 
unlicensed spectrum.
    Mr. Doyle. Thanks, Mr. Bergmann. I yield back.
    Mrs. Blackburn. Mr. Lance, you are recognized for 5 
minutes.
    Mr. Lance. Thank you, Madam Chair.
    Mr. Bergmann, while siting on Federal lands is certainly 
important, equally important is the need to address siting 
issues in areas that are urban and suburban. Should we be 
considering reasonable shot clocks and deemed granted remedies 
to ensure that deployment can happen expeditiously, so 
consumers and businesses can get access to these new wireless 
services?
    Mr. Bergmann. Thank you, Congressman. Absolutely. As I was 
discussing with Ranking Member Doyle, infrastructure is a 
critical component in 5G networks. And as we look to this new 
technology, we are looking at a different kind of 
infrastructure. We are looking at small cells, at the hundreds 
of thousands. Where typically we looked at 200-foot macro 
towers, now the technology is the size of a pizza box or lunch 
box.
    We will need to have much denser infrastructure, and those 
kind of shot clocks and deemed granted remedies are really 
critical in terms of our network planning for 5G services and 
will help today with 4G networks. As we continue to increase 
capacity and build out to meet that consumer demand, the 
ability to have those kinds of shot clocks and deemed granted 
remedies will speed our ability to invest today and to create 
jobs today.
    Mr. Lance. Thank you. Would anyone else on the panel like 
to comment? Mr. Carlson.
    Mr. Carlson. If I may. I couldn't agree more that shot 
clocks certainly have a great role to play. You know, another 
issue that we face at Ericsson is laws that look at towers the 
same as they have been looked at for the last 20 years. And as 
we deploy more and more 5G type of services that are going to 
be very small, the size of pizza boxes----
    Mr. Lance. Or a bread basket, as was said on ``What's My 
Line?'' The audience is looking vaguely into the distance, not 
remembering that.
    Mr. Carlson. The policies that treat them the same as if 
they were a 200-foot tower just don't make any sense, and so 
one of the things that we would urge are policies that 
recognize that we are going to have towers that are on 
lightpoles or flagpoles even, and treating those the same as 
towers that are large. You know, that doesn't make much sense, 
and especially as we are going to be looking at deploying 
hundreds of thousands of 5G-based stations.
    Mr. Lance. Thank you.
    Ms. Manner?
    Ms. Manner. Thank you so much, Congressman. We face a 
different sort of regulatory hurdle that I would like to talk 
about for a second.
    Mr. Lance. Certainly.
    Ms. Manner. For Jupiter XIX--I am sorry, for EchoStar XIX, 
our latest satellite, we utilize just around 20 gateway earth 
stations. That is our ground infrastructure. And we don't face 
the same siting issues as the wireless industry terrestrially, 
and very happy about that, and we are happy to see the 
legislation to help further broadband deployment.
    But what we do, and what we are seeing--are facing now is 
the FCC, in the upper millimeter wave bands where we operate 
our satellites today, have put in very conservative 
restrictions on our siting.
    So, for instance, in the KA band, which is where our 
satellite operates today, we can only deploy in areas with a 
less of--.1 percent population density or less, which means in 
population coverage areas where there is 99.9 percent of the 
people we can't deploy. Unfortunately, that does harm our 
access to back call something we depend on--roads--and, most 
important, employees because of course we staff our local 
facilities as well.
    Mr. Lance. And that, of course, would include New Jersey, 
the most densely populated State in the Nation.
    Ms. Manner. Exactly.
    Mr. Lance. Now, is that an FCC rule and regulation that 
could be amended by the newly comprised Commission?
    Ms. Manner. Yes, we have--actually, we and a number of 
other people have petitions for reconsideration pending, so we 
are hoping that will be revised. Thank you.
    Mr. Lance. Thank you.
    Mr. Bergmann, now that the auctions from the 2012 
legislation have run their course, is it your view that we need 
a new spectrum pipeline initiative to meet America's future 
spectrum needs?
    Mr. Bergmann. Thank you, Congressman. It is absolutely 
critical that we are planning now for a 5G spectrum pipeline. 
The work that this committee did in the early 2000s set the 
stage for our global leadership in 4G, and now this committee 
has the opportunity to make sure that we have enough spectrum 
resources to do that.
    A really critical piece to that are the high-band spectrums 
that my friend from EchoStar was talking about. In that order 
that was adopted last year, the FCC established a framework to 
make those high bands 5G first bands. We believe that is really 
critical. We want to make sure that the Commission continues to 
press forward and that the wireless industry is able to build 
out those bands.
    Those are really the launching pad for 5G services. We 
believe the FCC struck a very reasonable framework, and we want 
to make sure that those bands are available and able to be 
deployed, so that we can lead the world in 5G.
    Mr. Lance. Thank you. My time has expired. Madam Chair, 
thank you very much.
    Mrs. Blackburn. And I appreciate the gentleman mentioned 
the TV show ``What's My Line?'' as I----
    Mr. Lance. How would you know, Madam Chair? You are much 
too young to recall that.
    [Laughter.]
    Mrs. Blackburn. I was once on that TV show, and that is all 
I am going to tell you.
    [Laughter.]
    Mr. Pallone, you are recognized for 5 minutes.
    Mr. Lance. I want more time.
    [Laughter.]
    Mrs. Blackburn. Ain't happening, buddy.
    Mr. Pallone. Thank you, Madam Chairwoman. Today I put 
forward a discussion draft, a bill called the Connected 
Government Act, which acknowledges the need to bring Government 
services to people where they are. And, increasingly, 
struggling families are on mobile devices. People who make less 
than 30,000 a year are 13 times more likely to access the 
internet only on a mobile device than those who make more than 
70,000 a year.
    So we need to make sure that the Government services they 
need are easy to access on those devices, and this bill would 
do that by requiring consumer-facing Government websites to be 
mobile-friendly. So I wanted to ask Mr. Bergmann, I am sure you 
haven't had any time to even look or analyze this bill that 
just came out or this discussion draft. But do you think that 
CTIA could support a bill with those goals in mind?
    Mr. Bergmann. So thank you, Ranking Member Pallone. 
Absolutely. Americans live mobile first lives. From your 
description of the legislation, it is encouraging Government to 
recognize that. We know that over 45 percent of all households 
are wireless-only, and we love it when our Government partners 
recognize that Americans are mobile first.
    Mr. Pallone. Thank you.
    I want to go to Mr. Wright. In your testimony, you note 
that annual U.S. economic activity associated with unlicensed 
uses is estimated to be well over $500 billion today. I am 
concerned that when Congress starts to discuss spectrum policy, 
at some point the conversation inevitably turns to how much 
money we can raise for the treasury.
    But as you point out, the value of spectrum goes beyond how 
much money the Government can raise. So do you think it is 
important to make sure we address good spectrum policy before 
worrying about how much the spectrum is going to make for the 
Government?
    Mr. Wright. Thank you, Congressman Pallone. That is I think 
a very pertinent question and a fundamental question for the 
subcommittee and Government at large to address. I do question 
the manner in which we value spectrum today, solely on the 
basis of the revenue that can be generated at auction.
    I have noted that in some of the provisions within the 
Budget Act of 2015, I believe, the provisions regarding the 
relocation fund, we are incenting Federal agencies to make 
spectrum available for commercial use either by clearing it 
fully or by making a shared Federal/non-Federal type use 
available.
    However, the technical panel that is going to review 
payments to those Federal agencies, it can only value the 
activity of those agencies based on, is there an incremental 
increase in the amount of revenue that is raised at an auction? 
So there is no incentive for an agency to make spectrum 
available, even on a shared basis with unlicensed use or 
permissive use with a coordinated shared spectrum framework. I 
do think we need to revisit how we are evaluating spectrum.
    Mr. Pallone. All right. Thank you.
    And then my last question, I am concerned, not for anybody 
in particular, I am concerned that just identifying new 
spectrum isn't enough. It takes far too long for entities to 
gain access to spectrum, and even longer for the public to 
benefit. So the question, really, is: where are the bottlenecks 
in the current processes? What should Congress do to resolve 
these issues?
    I guess I could ask you, Mr. Bergmann, to start out.
    Mr. Bergmann. So thank you, Ranking Member Pallone. So this 
committee held a hearing about a month and a half or so ago on 
NTIA reauthorization, and I thought that was a really 
productive discussion about things that can happen to make 
Government spectrum, which Federal Government users currently 
have primary access to over 60 percent of that spectra below 
3.7 gigahertz. Those are key low-band and mid-band spectrum.
    And I had a really good conversation about things that NTIA 
can do to have greater transparency, create greater incentives 
for Federal Government agencies to make spectrum available. We 
should certainly encourage this committee to look at incentives 
for Federal agencies. I know that your colleagues Congressmen 
Matsui and Guthrie have proposed some legislation.
    Creating those kinds of incentives to help make it win-win 
for Government users is really important. I know that just 
yesterday the Center for Strategic Intelligence, just released 
a paper with--you may remember General Wheeler, who was in 
charge of the communications systems for DoD, and he talked 
about how the last two spectrum auctions really improved DoD's 
capability.
    So we believe that the spectrum reallocation process can be 
win-win, can create benefits for our global leadership, but can 
also create benefits for Government users, and that makes it 
more likely to happen.
    Mr. Pallone. I have 18--do you want to say something, Mr. 
Wright? Go ahead.
    Mr. Wright. If I could, Congressman. I just wanted to agree 
with Mr. Bergmann. I believe that if we can encourage NTIA and 
the Commission to work together to just identify which bands 
will be made available for new designations of licensed, 
unlicensed, or coordinated shared use, and really let industry 
know sooner--we had a recent experience with the 5350 to 5470 
band that we were hoping and that industry was expecting would 
be made available for unlicensed--that had been in play for a 
number of years, and then we just learned at the end of last 
year that that wasn't going to happen. So I think more 
expeditious processing would be very helpful.
    Mr. Pallone. All right. My time is up. Thank you.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Shimkus for 5 minutes.
    Mr. Shimkus. Thank you, Madam Chairman.
    It is great to have you all here, and welcome. And I want 
to turn to Mr. Bergmann. I think you have done a good job 
articulating that there is a different world now between the 
big cell towers of the past and, really, the small cell 
applications.
    Can you give us some--what I want to focus on is I think 
some of the testimony, some of the comments that siting 
policies that are overly burdensome, discriminatory, and going 
beyond cost-based fees, can you give us--I mean, what does that 
really mean? I think I know, but----
    Mr. Bergmann. Sure. Thank you, Congressman Shimkus. I 
really think about it in sort of 3 buckets--access, delays, and 
costs, the ABCs of infrastructure setting, and I think there 
are challenges on all those fronts.
    We have encountered a number of localities throughout the 
country that have adopted moratoria on building out. So----
    Mr. Shimkus. So even these small cells, they would say 
absolutely not, even though it is a lot different than the 
large tower.
    Mr. Bergmann. That is exactly right.
    Mr. Shimkus. And you are talking, like, a community, like a 
city, a village?
    Mr. Bergmann. Communities across the country, 17 in 
Florida, in Tennessee, in Massachusetts, in New Jersey.
    Mr. Shimkus. I mean, you go back to the old days of trying 
to hide the cell tower by making it a flagpole or a fake tree 
or something like that. So this is a different world.
    Mr. Bergmann. It is a very different world. You know, when 
something is the size of a pizza box or shoe box--and credit to 
a lot of my colleagues on the panel--there are companies that 
are coming up with smaller and smaller cells all the time, and 
so we are looking to site, again, not on towers but on the 
sides of buildings. So it is important that we have access to 
those lightpoles and municipal-owned poles. And as well costs, 
as you mentioned, are key. We found----
    Mr. Shimkus. Let me ask again, so you used a word--I think 
there was a word used, ``discriminatory.'' So give me an 
example of where they are discriminating.
    Mr. Bergmann. In a municipality in Minnesota, one company 
got access to poles for $600 a year, $650 a year. The next 
company that came along 2 years later, the price was 7,500. 
That is a pretty big difference, and we don't think that 
reflects the actual costs.
    We really believe that access to those rights-of-way should 
reflect the cost to manage it, and it shouldn't be a revenue 
stream. We shouldn't create a new fund diversion process.
    Mr. Shimkus. And so that is, the last part of my first 
question was this talk about beyond cost-based fees, right?
    Mr. Bergmann. Sure. So----
    Mr. Shimkus. Delays. Our members have routinely found that 
this process can take up to 2 years. When you add those delays, 
you add costs, you create uncertainty. It is harder to deploy 
your networks and plan your networks. Again, with the 5G 
services we are talking about, we are talking about those high 
capacity, low latency services. And we want self-driving cars? 
We want to make sure we have that dense infrastructure, so that 
we have that reliability, safety, and security.
    Mr. Shimkus. Thanks.
    Let me go to Mr. Carlson. Kind of along the same line, in 
your testimony you state that the proposed legislation reduces 
many of the costs of infrastructure deployment. What is not 
being addressed that you think should be addressed?
    Mr. Carlson. Let me give that some thought. You know, I 
think that the idea of shot clocks isn't in this, and that 
could really help.
    Mr. Shimkus. Pull that mike a little bit closer.
    Mr. Carlson. I am sorry.
    Mr. Shimkus. Mr. Lance can't hear very well.
    Mr. Carlson. That the idea of increased use of shot 
clocks--and Chairman Pai has raised this, too, and so I will 
channel him briefly, and that is the idea of using a tool 
called ``deemed granted.''
    So that if enough time goes by and you haven't gotten an 
answer one way or another, then an application to build a tower 
would be--a certain amount of time you could say--you could 
take it to the bank and say, ``We are done.'' It has been 
however many months we are going to allow, and your inaction 
has meant that we will now put up the tower.
    Mr. Shimkus. OK. Madam Chair, I am done. I yield back.
    Mrs. Blackburn. Mr. Shimkus yields back. And, let's see, 
Mr. Loebsack for 5 minutes.
    Mr. Loebsack. Thank you, Madam Chair. I do want to thank 
the committee for holding this hearing today and the witnesses 
for testifying on this very important issue. It is a 
fascinating issue. It is hard to understand sometimes I think 
for most people, but it is so absolutely critical. There is no 
doubt that the advances in wireless technology have changed our 
life pretty dramatically, and our economy as well.
    I think especially the past 10 years or so, and looking at 
all of the innovation happening in the industry, with all of 
the technology, I personally think it is--and I know a lot of 
people on this--maybe everybody on this committee believes the 
same thing--we can't leave anybody behind, especially in rural 
areas.
    I am, obviously, a huge advocate for rural America. I have 
24 countries in southeast Iowa, and we have some towns of some 
size, but it is a largely rural place. And it is just very 
difficult for a lot of folks in those areas. You know the 
stories. I mean, you have heard about the homework gap. A lot 
of these kids who in school get assignments, and they have to 
be able to go home and get on the internet, so they can 
complete the assignments, their homework, but it is almost 
impossible in many instances for those kinds to do that. They 
have to find a hotspot somewhere, and there aren't McDonald's 
in small town Iowa. It is very, very difficult to do that.
    Rural economic development is absolutely critical. We talk 
about telehealth. It is great for hospitals to have that 
capacity to reach out to folks in rural areas, but if someone 
in a rural area doesn't have sufficient bandwidth, then they 
can't take advantage of the other--they can't access rural 
telehealth. So it is a great concept, but we need the 
infrastructure, we need the capacity, we need the access to 
spectrum, for them to be able to do that. So that is why this 
is so critical.
    And we are mainly talking, I understand, about the MOBILE 
NOW Act. But, Madam Chair, I was very happy she mentioned the 
Rural Spectrum Accessibility Act. That is H.R. 1814 that 
Congressman Kinzinger introduced. I am the lead Democrat, and I 
want to thank him for working with me. We don't have a lot of 
bipartisanship at the moment in Washington, DC, as you all 
know. But those of us in rural areas work together all the time 
on these issues, and it is really, really critical that we do 
it.
    And, basically, this bill is very simple. It is not very 
long. But it would help to expand wireless coverage in those 
rural areas by establishing a program that would encourage 
spectrum licensees to lease unused spectrum to small rural 
carriers. That is all it would do, but that is something that 
hasn't happened in the past.
    And so, basically, what it would do is, you know, allow 
some of those rural carriers to access spectrum that is unused. 
It may seem kind of far-fetched that there is unused spectrum, 
but there is in some places. There is no doubt about it.
    I guess I want to ask, Mr. Bergmann, in your view, would 
this legislation help close the coverage gaps in rural parts of 
the country? And I am sure you may not have been able to look 
at the legislation yet--we just reintroduced it--but go ahead 
if you would.
    Mr. Bergmann. Thank you, Congressman Loebsack. We certainly 
commend you and your colleague, Mr. Kinzinger, for this 
legislation. I have had a chance to take a look at it, and I 
certainly think it offers the kind of creativity that you need 
to make sure that we have enough service in rural areas.
    It is critically important. As you mentioned, folks in 
rural areas stand to benefit as much as anyone, whether it is 
remote surgery or whether it is education and bringing the 
benefits to rural kids. So we certainly applaud your creativity 
in terms of trying to create incentives and opportunities for 
flexibility in building out to rural areas.
    Mr. Loebsack. Thank you.
    Yes, go ahead, Mr. Wright.
    Mr. Wright. Thank you, Congressman Loebsack. I wanted just 
to address that as well. I do understand that the cellular 
industry has made spectrum available to rural carriers, and 
that is certainly helping in this case. Ruckus has done a lot 
with connecting the unconnected, and I am very sympathetic to 
the examples you mentioned of kids having to, you know, sit in 
fast food restaurant parking lots to get their homework done. 
That is ridiculous.
    I would mention the coordinated shared spectrum framework, 
such as CBRS, one of the things that we find very compelling is 
the ability to deploy LTE services in that spectrum at the 
permissive tier, so at the general authorized tier of access 
without having to go through a license auction to acquire the 
spectrum.
    So we believe that would enable municipalities and rural 
carriers and potentially new entrants into the market to 
provide coverage to rural communities at a much lower price 
point.
    Mr. Loebsack. You actually addressed my second question, 
which I don't have time for, but, Ms. Manner, go ahead. Thank 
you.
    Ms. Manner. Thank you, Congressman. As a nationwide 
satellite broadband operator, and with the launch of EchoStar 
XIX and going into service this March, I think you will see 
much-improved service with speeds upwards of 25/3 and even more 
for enterprise customers. So with the satellite industry moving 
in that direction, I think it is really good news for rural 
America, and we look forward to being a good partner with you 
and your constituents.
    Mr. Lance. Thank you.
    My time has expired. Thank you, Madam Chair. I yield back. 
Thanks to all of you.
    Mrs. Blackburn. Mr. Latta for 5 minutes.
    Mr. Latta. Well, thank you, Madam Chair, and I am looking 
forward to finding out about What's My Line? now. I can't find 
it on the internet, but I will find out.
    But thank you again for this hearing today, and I want to 
thank our witnesses because this is an area that--where our 
country is going. As my friend from Iowa was just discussing, a 
lot of us that are on the rural caucus here in Congress are 
very concerned about areas of cost for our districts that don't 
have that service to help our businesses and our kids get 
ahead. We want to make sure it is out there.
    And, Mr. Carlson, I think I am going to start my questions 
with you, because you have got some things in your testimony 
that are very interesting, because one of the great things 
about serving on the Energy and Commerce Committee, but also 
serving on this subcommittee on telecomm, through the years, 
you know, we hear a lot of things come through here, but we are 
also looking at life maybe 5 to 10 years over the horizon, 
which we only have regulations out through--we are looking in 
the rearview mirror.
    And several years ago when--I can still remember the 
hearing that we were told that probably worldwide by the end of 
this year we would have 1.6 devices per individual. And when I 
was co-chairing the Internet of Things working group this past 
Congress, and your testimony kind of brings this forward, is 
that you are looking at that we are going to have between about 
29 billion connected devices by 2022. And I would say the 
number that we were given could even be, by 2025, even have up 
to 50 billion by that time.
    So, you know, things are moving very quickly. And I guess 
as we go forward with this, as we are looking for all of these 
devices being connected, especially through the Internet of 
Things, from our aircraft, trains, water systems--you know, one 
of the greatest threats we have out there is on cybersecurity 
and the risks associated with that. And are we going to be 
prepared with these Internet of Things devices to be reliable 
enough to protect against attack from cyber attacks into the 
future when we get to that point?
    Mr. Carlson. So let me address this as Ericsson can. When 
we talk about 5G and IoT, they really go hand in hand. You 
know, from our point of view, the amount of data that you are 
going to see from IoT devices demands 5G technologies. And I 
will tell you this, that the standards groups that are working 
in 5G right now, and that Ericsson is an integral part of, are 
building in security at the beginning. It is not going to be an 
afterthought. This is something that, you know, will be a part 
of the standards from the moment that they are put out there.
    You point out plains, trains, and water systems 
specifically, and I agree, those are crucial areas. You know, 
it is important to recognize that some areas that might connect 
by an unlicensed device maybe don't need that level of 
security. So it really requires, you know, sort of a holistic 
look at what you need for what application you are looking at.
    And like I said, from Ericsson's point of view, 5G will 
have those levels of security that are needed to protect 
infrastructure, like you have pointed out, built in from the 
beginning.
    Mr. Latta. Thank you.
    Ms. Manner, if I could go back, there is something you had 
said, because you were talking about with the FCC and on the 
regulations affecting you, and especially on the satellite 
site, and you thought that maybe that they are, I think you 
used the word ``conservative.'' Could you explain that?
    Ms. Manner. Certainly. Thank you for the question. When the 
FCC adopted its regulations, it took an approach where they 
treated the country as a whole, and they said, ``We are going 
to limit satellite deployment in all areas to this very small 
.1 percent population density coverage where you could put your 
ground facilities.''
    We actually do believe that is appropriate in urban areas, 
where we do think that 5G is going to be very widely deployed. 
But when you get to rural areas, I can give you an example. We 
have a gateway earth station in existence today that we would 
not have been able to deploy, and there is no people, 
absolutely no one within the coverage of our system.
    So we are being denied access to areas to bring service, 
especially to rural and remote regions, but also satellite is a 
critical part of the 5G ecosystem. We are today; we will be 
tomorrow. For instance, we support pipeline customers. We 
support the banking system, finance, and without the ability to 
site our gateway infrastructures, our ground systems, we are 
not able to bring those services.
    So while we understand some of the restrictions the FCC 
adopted--and we do think those are even a little bit more 
conservative when we get to the more middle and lower 
population densities area of the country, we do think the FCC 
went a little too far and was aggressive in its ruling.
    Mr. Latta. Well, thank you.
    And, Madam Chair, my time is expired, and I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Ms. Eshoo, you are recognized for 5 minutes.
    Ms. Eshoo. Thank you, Madam Chairwoman.
    First, I just want to make a couple of comments about the 
legislation that is being considered MOBILE NOW, and then I 
have some other questions. I think on the positive side that 
the bill is, I think, good on unlicensed spectrum. And I think 
this committee knows very well, and others do, too, that I have 
worked hard on unlicensed for a long time because I think it 
really is the innovation platform. We can always do more, but I 
think the bill treats unlicensed well.
    I think the bill is mediocre or maybe a few tabs down from 
mediocre on a dig once policy. It is not going to accomplish 
anything. It just isn't going to accomplish anything. It 
mentions the words, but there isn't any action plan to actually 
dig once and be able to expand connection for broadband, 
especially in rural parts of our country. So those are my two 
observations about the bill.
    Mr. Bergmann, I want to go to you and the issue du jour 
that has just recently taken place, and that is the 
Congressional Review Act that wiped out privacy protections, 
and CTIA was part of the coalition that was for that. Since 
then, I have been busy reading what the companies have posted. 
I read the AT&T's blog post defending the use of the CRA to 
repeal the FCC's broadband privacy rules, not exactly a shock 
to me, but it is still interesting to read.
    The post says that ``No one is saying there shouldn't be 
any rules.'' It goes on to say that supporters of the CRA 
believe the FCC's rules should be replaced by the FTC's 
longstanding approach to privacy.
    Just to be clear, does the FTC approach involve setting 
rules for ISPs? I mean, what do you think about that? And would 
ISPs be required to precisely follow the FTC's privacy 
framework?
    Mr. Bergmann. So thank you for that question, 
Congresswoman.
    Ms. Eshoo. Oh, you are most welcome.
    Mr. Bergmann. So our companies are absolutely committed to 
earning the trust of their customers, and that is something 
that they practice every day. You are correct; we do believe 
that the FTC's approach, which is based on the principles of 
data sensitivity and consumer choice and transparency----
    Ms. Eshoo. Let me just say this, Mr. Bergmann. The FTC 
lacks rulemaking authority. They set guidelines. So there isn't 
anything that is going to guarantee consumers of anything or 
what may constitute violations of the law. So I think it is 
important to set that down.
    CTIA has previously testified that the patchwork of State 
laws covering data security and data breach notification is 
confusing for businesses and provides uneven protection for 
consumers. So, in your view, how is leaving consumer privacy to 
the same patchwork of State laws any different?
    Mr. Bergmann. We do believe that having a consistent, 
uniform approach to all players in the internet ecosystem is--
--
    Ms. Eshoo. How is that going to be accomplished under a 
patchwork of 50 states? How is that consistent?
    Mr. Bergmann. So, again, we support the FTC's framework, 
and the FCC does have enforcement authority and does, over the 
vast swath of the internet ecosystem, enforce that privacy 
framework, and we do continue to believe that consumers should 
have the----
    Ms. Eshoo. You know what I think has happened here? And I 
think the companies may not see this right now, but there is a 
hue and a cry from constituents on this issue. I think 
companies have damaged their brand with this. That is just my 
opinion, but it is the opinion of my constituents. I have been 
around for a while. I know how to measure things, and I think 
that they have really taken a hammer and banged away at their 
own brand. They have hurt themselves in this because--for all 
the obvious reasons. I just want to set that down.
    Now, the FCC's rules also would have required ISPs to 
disclose when data breaches occur. That is another protection 
that now won't take effect. It has been blown up. How do 
consumers trust that ISPs are going to keep their data secure? 
How are they going to know this?
    Mr. Bergmann. So our member companies all have policies and 
follow the FTC's guidance on data breach notification. To your 
point, Congresswoman, our companies depend on the trust of 
their customers. And in a competitive market like----
    Ms. Eshoo. Well, they depend on the trust of their 
customers. They have--as I said, in my view, they have more 
than chipped away at that. And I think that, you know, there is 
something else to this, and that is that this bill was signed 
behind closed doors. It was not a source of pride. And I think 
that this is going to haunt the companies and it is going to 
hurt consumers. Thank you.
    I yield back.
    Mrs. Blackburn. The gentlelady yields back.
    Mr. Guthrie, 5 minutes.
    Mr. Guthrie. Thank you very much, and I was going to talk 
on a bipartisan bill, too, like my friend Mr. Loebsack did. It 
seems like I am in a hearing about every other day. Almost--not 
all hearings, we had a few here, but most somebody always 
starts out with, ``Despite all the partisanship in town, this 
is a bipartisan bill.''
    So saying that, there is a lot of bipartisan stuff going 
on. Some of the big stuff that makes the news and you talk 
about, we just have differences of opinions on, and we express 
those. But just some of these things that are not ideological, 
it is just trying to fix things, we are working together.
    And an example is Congresswoman Matsui and I have worked 
together on spectrum, a spectrum caucus, trying to free 
spectrum. I have said before that this is an issue I didn't 
campaign on, go around saying, ``Send me to Washington, and I 
will deliver you spectrum,'' but people expect it and want it 
and want the products to work and more, more.
    And so as we look at who--the biggest holder of spectrum is 
the Federal Government, and so we are--our bill has the intent 
of--and it is a work in progress. It is supposed to have been 
filed last night. Quite honestly, I had it in my hand. This is 
how laws get made sometimes. I had it in my hand, and I sat it 
down because something happened.
    I said to somebody in my office, ``Remind me to take that 
to the floor when votes are called, and I am going to get a new 
designated reminder,'' because I knew I was going to forget, 
but it made its way over last night I think and got filed; if 
not, first thing this morning. But the important thing is that 
we are trying to--how do you incentive the Federal agencies to 
free up the spectrum?
    On their behalf, one is that if you have something, you 
want to get rid of it, you don't want to lose it, and the 
second thing, is it expensive and time-consuming and difficult 
to clear and repack?
    So I know like, Mr. Bergmann, and anybody on the panel, if 
you want to start first, you all have looked at the bill. The 
concept of Federal incentives and, like I said, this is a work 
in progress. This is similar--even though it wasn't filed until 
late last night, it is similar to--it is the same as last year, 
and it is a work in progress to fix. So if you could comment on 
it, I would really appreciate it.
    Mr. Bergmann. So, Congressman Guthrie, we thank you for 
your leadership as co-chair of the spectrum working group, and 
certainly your partnership with Congresswoman Matsui on that 
legislation--I have seen prior Congresses' version--we 
certainly look forward to that. We think your focus on Federal 
incentives is critically important.
    As you mentioned, the Federal Government, which has very 
important missions, nonetheless, has, you know, primary access 
to over 60 percent of that key spectrum in those key low and 
mid bands. And so trying to create incentives for that spectrum 
to be made available for commercial use is critically 
important.
    The partnerships that we were able to develop through the 
AWS 093 spectrum, which freed up Government spectrum and 
created the largest spectrum auction by revenue in FCC history, 
enabled us to lead in 4G, but also gave important funding to 
those Federal agencies through the Spectrum Relocation Fund and 
has enabled them to upgrade their systems.
    So we truly do believe that there are win-win 
opportunities, and we believe that the legislation that you are 
working on only underscores and makes those benefits stronger.
    Mr. Guthrie. And I will open it to the panel, but I want to 
focus on something and everybody can comment on, too. Like I 
said, it is the same bill. Whether it was publicly available 
tonight or this morning, it is the same bill. So it does take a 
long time to get this through the system and to clear and 
repack.
    So, in the meantime, and, for one, about the incentives 
anybody else on the panel wants to talk about, but also should 
the FCC be taking steps to modernize its rules and bands that 
could be repurposed for broadband and embrace secondary market 
transactions that could potentially make additional spectrum 
available for wireless broadband in the meantime?
    Mr. Bergmann. Sure. There are absolutely things that the 
Commission can do and we certainly applaud the FCC. At its open 
meeting last week, it provided more flexibility for companies 
to use spectrum for LTE services, took steps to eliminate some 
of the redundant licensing requirements and harmonize those 
across different spectrum bands. So we think the FCC can be 
busy trying to create more opportunities for flexible use.
    We also think it is incredibly important that they move 
forward on that high-band spectrum that we have talked about 
earlier. Again, that really, we believe, is a launching pad for 
5G services.
    And as we talked a little bit about satellite's access to 
those bands, I just want to reaffirm for the committee that the 
satellite industry, we welcome their competition in 5G. They 
also have the opportunity to lease spectrum or to show up at 
auction and bid for spectrum the same way that the wireless 
industry does.
    Mr. Guthrie. So you think the FCC has its own authority 
enough now to release high band into the marketplace, or does 
legislation need to be passed to do that?
    Mr. Bergmann. We applaud them for the work that they are 
doing. We think that when Congress can provide clarity in 
timelines and guidance, that is always helpful. This committee 
has a long history of setting deadlines and making----
    Mr. Guthrie. Ms. Manner wants to say something. I only have 
seconds, if you want to--as long as the chairwoman allows it.
    Ms. Manner. I really wanted to respond not directly to Mr. 
Bergmann, but to you, Congressman, and your statement about how 
to move things along faster. And we recognize--my company 
certainly recognized there is a need for spectrum sharing. But 
I think that overall the process would work faster and better 
if there was also a recognition of the need for technology 
neutrality. And it doesn't mean splitting spectrum in half and, 
as I said, giving half or a third to a wireless, a third to 
unlicensed, and a third to satellite. That won't work.
    But I think without those protections you are going to 
continue to end up with these long, protracted regulatory 
proceedings, and that certainly does hinder access to the 
market and, more importantly hinders certainty in the 
marketplace, which is critical for all of our companies to 
deploy.
    Mr. Guthrie. Thanks. I thank the Chair for her indulgence, 
and I yield back my time.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Engel for 5 minutes.
    Mr. Engel. Thank you, Chairwoman Blackburn. Before I start 
here, I wanted to reiterate on something that Mr. Doyle said 
earlier. My Democratic colleagues and I were all unanimous in 
our opposition to the privacy CRA, and I thought that this CRA 
was snuck up on us, and Mr. Doyle made an excellent point that 
there was plenty of time for this subcommittee to hold public 
hearings on this issue, argue about statutory authority, and 
educate ourselves and the public. And for whatever reason, we 
didn't do any of that.
    Instead, this was rammed through, rammed the CRA through, 
and our constituents now, as far as I am concerned, are all 
stuck under this regime where they have no control over their 
browser history, their financial information, any of it. I 
think it is just percolating out into our country now about 
what really happened. People are outraged. I have heard from my 
constituents they can't believe that this would happen, and 
they feel violated. Their privacy has been violated.
    So the next time an issue like this comes up, I hope we can 
actually follow regular order instead of doing a rush job with 
the CRA. I have a lot of respect for our committee and our 
subcommittee, and we have good people here on both sides of the 
aisle. And we could have had an open discussion, open hearing 
on it, but we had none of that. For some reason, the leadership 
decided to ram it through, and I just think it is an outrage.
    I have been here for nearly 30 years. And, frankly, I think 
it is one of the biggest outrages I have seen in that time, 
that people should lose their privacy when they are not even 
aware of it and it should just happen quickly and the President 
quickly signs it in a closed signing. It is just not the way we 
should be doing business here.
    I want to thank the witnesses. I am glad that there is 
bipartisan consensus here around the question of the need for 
more spectrum allocation. But in the written testimony I saw 
some disagreement about the question of what we should do with 
this spectrum once it becomes available for commercial use.
    As everyone knows, Senator Thune's MOBILE NOW bill would 
make it official policy to set aside enough unlicensed spectrum 
to make sure that American consumers have the wireless services 
that they need. I think this is the right place to start this 
conversation. So that this is clear, I understand and 
appreciate how tight licensed spectrum is becoming. Carriers 
need to be able to clear the space they need, so that our 
phones, tablets, watches, televisions, and who knows what other 
devices in the future can maintain a secure, robust connection.
    Companies absolutely need licensed spectrum to do business, 
and consumers rely on the services that licensed carriers 
provide, so they can manage their connected lives. But I am 
still struck by how important the unlicensed parts of the 
spectrum are for innovation and competitive. Wi-Fi runs in an 
unlicensed spectrum; Bluetooth mice and keyboards run on 
unlicensed spectrum. The companies are going to innovate, but 
the next big open source cutting edge, garage lab technology, 
is going to have to use the unlicensed parts of the spectrum.
    Let me ask Mr. Wright a question. And, by the way, being a 
New York Mets fan, I love the name David Wright. I want you to 
know that.
    You wrote a bit about this in your written testimony. You 
quoted FCC Chairman O'Rielly saying that the best part about 
unlicensed spectrum is, and the quote is, ``You don't know what 
you are going to get out of it.'' I was wondering if you could 
expand a bit on what that means and why we need unlicensed 
spaces for people to innovate.
    Mr. Wright. Thank you, Congressman. So in terms of the 
quote by Commissioner O'Rielly, I believe it just speaks to the 
flexibility that unlicensed spectrum opens up for innovators in 
the best minds of our country to come up with all sorts of new 
services. It goes back to 1985, again, when the 2.4 gigahertz 
band was initially opened up.
    We now have Wi-Fi carrying the vast majority of wireless 
data traffic in the world. I won't bring up the Cisco stats, 
you know, for all wireless traffic. But even if we talk about 
just dual-mode mobile devices, so devices that have a cellular 
and a Wi-Fi radio in them, 60 percent of the traffic from those 
devices is going over Wi-Fi. It is expected to increase to 63 
percent against those Cisco numbers.
    So to my mind, as we look forward and we talk about virtual 
reality, augmented reality-type applications, unlicensed 
spectrum is going to play a key role in delivering those 
things. I was at Mobile World Congress. Certainly, the mobile 
industry is doing a lot in that space as well, and there will 
be, you know, licensed services to do that.
    But in the home, in the classroom, we think unlicensed is 
the right technology there at the rate--pardon me, spectrum 
framework there for lower cost technologies that can be 
deployed and that consumers can benefit from. So I think that 
is really the value of unlicensed spectrum.
    Mr. Engel. So the unlicensed space that is currently 
available is filling up, right?
    Mr. Wright. Yes, sir. Unlicensed, we have, you know, 
pressing needs for Wi-Fi, the Quotient Report that I cite in 
the testimony. We have LTE services that are coming into the 
mid band now, and we also have IoT taking off like a rocket 
ship as the Ericsson report attests to.
    Mr. Engel. And, Madam Chair, if I might, I would like to 
ask Mr. Bergmann a quick question. It sounds from your 
testimony that you understand the value also of this unlimited 
space. You talked in your testimony about the need, and I quote 
you, ``for a mix of licensed and unlicensed spectrum,'' that 
they are each valuable in their own way. Could you elaborate 
for a few seconds on it?
    Mr. Bergmann. Sure. Thank you, Congressman Engel, for the 
question. And you are right, we do support a balance of 
licensed and unlicensed spectrum. I think my colleague from 
Ruckus has spoken about the benefits of unlicensed. Licensed 
plays a critical role as well, too, particularly as we look 
towards healthcare applications that are going to be available 
over 5G.
    Having the ability to have the security and the performance 
assurances that licensed spectrum gives you is critically 
important. That is why we have really encouraged this 
subcommittee to build on MOBILE NOW, to make more licensed 
spectrum available. Again, when we are talking about 
investment, we are looking at the opportunity to have $275 
billion of investment and to create over 3 million new jobs in 
our communities, if we can make the right spectrum available 
for 5G.
    Mr. Engel. Thank you.
    Thank you, Madam Chair, for your indulgence.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Olson for 5 minutes.
    Mr. Olson. I thank the Chair, and welcome to our four 
witnesses. I work for the people of Texas 22, which is 
southwest of downtown Houston. I would say it is about to 
overtake Chicago as the third largest city in America. My home 
has access to 4G, and about one-third is farming and ranching 
operations.
    We talked in here about self-driving cars. I have seen a 
self-driving tractor in Fort Benton County. This man's 
tractor--first of all, the cab was luxurious--air conditioning, 
Sirius radio, nice big cup of cold iced tea. That tractor with 
a GPS would--he predicted the field, put that in there. Every 
seed was planted perfectly, same distance, same depth. He just 
watched it happen.
    Now, Texas has 254 counties. My district has 3. Those 
counties, most of them don't have that access. And so my 
questions are, Mr. Bergmann, a recent study by Deloitte 
observed that in order for us to realize the full potential of 
4G networks and 5G networks, governments at all levels have to 
make ``permitting and regulatory process more efficient.''
    My question is: as we work in Congress with the FCC to 
develop a rational regulatory process for the development of 
small cell technologies, what should be our key objectives?
    Mr. Bergmann. Thank you, Congressman, for the question. I 
absolutely agree with you. Certainly think citizens in rural 
areas and businesses in rural areas are among the folks who can 
benefit the most from the next generation of wireless.
    Focusing on infrastructure setting is critical. The delays 
that we see, particularly siting on Federal lands, which you 
often have in the western part of the U.S., is absolutely 
critical. We routinely experience delays of 2 to 4 years, 
sometimes even longer, to site on Federal lands. Even things 
like site renewals can take well over a year. And, again, that 
delay adds uncertainty, it adds costs, so reducing those 
delays, reducing those costs to site on Federal lands, is 
absolutely critical.
    Again, making the right spectrum available, we are about to 
have 600 megahertz spectrum available through the incentive 
auction. That is spectrum that travels long distances, so we 
want to make sure that that spectrum is able to be put to use 
as quickly as possible, so we are working very hard to make 
sure that we have a seamless and timely repacking process and 
get access to that spectrum are just a couple of the things 
that you can do to--I am sure that that investment in that 5G 
is not only in urban areas, but is also in those rural areas as 
well, too.
    Mr. Olson. In your comments here, sir, you have mentioned 
the delays in the siting process. Do you think a shot clock or 
some deemed granted remedy, would that be helpful for Federal 
and local siting to improve these delays and make sure we get 
these things going like that?
    Mr. Bergmann. Shot clocks and deemed granted remedies are 
extremely effective tools, and we would certainly commend the 
committee to consider them for both Federal siting and for 
municipal access as well, too.
    Mr. Olson. Mr. Wright, comments about getting 4 and 5G to 
rural America. How do we make this thing happen? What should we 
do? What should be our key objective here, working with the 
FCC?
    Mr. Wright. Thank you, Congressman. In terms of making LTE 
4G services available to rural America, one of the things that 
we think is most important is the coordinated shared spectrum 
framework, so like CBRS and the 3.5 gigahertz band. We think 
that because of the flexible framework with CBRS where you have 
obviously the incumbent Federal entities as well as commercial 
entities, you have the opportunity at the second tier for 
exclusive use of spectrum, and then you have the opportunity at 
the general authorized or third tier for essentially permissive 
use.
    So we think that can be very critical for rural coverage, 
to provide 4G LTE services, where municipalities, rural service 
providers, or even new entrants to the market could access that 
spectrum, perhaps initially permissively when the spectrum is 
available, and at auction if necessary. We think that----
    Mr. Olson. Ms. Manner, any comments, ma'am, please, 
quickly?
     Ms. Manner. Thank you. So I would say one of the most 
important things, just building on my conversation with the 
Madam Chairman, was getting access to more spectrum for 
satellite services to be able to provide higher speeds and 
greater capacity to rural America. So thank you.
    Mr. Olson. OK. And, finally, Mr. Carlson, your comment, 
sir, please.
    Mr. Carlson. Yes. And I will go back to something that Mr. 
Bergmann mentioned, and that is we have great spectrum that 
just was unleashed from the FCC and 600 megahertz. So anything 
that can be done to speed that to market, as you know, it--the 
statute calls for 39 months. Anything that we can do to get 
that 600 megahertz spectrum out there, given its great 
propagation characteristics, should help bring broadband to 
your rural areas.
    Mr. Olson. Thank you. My time has expired. I yield back.
    Mrs. Blackburn. Mr. McNerney for 5 minutes.
     Mr. McNerney. Well, I thank the chairwoman, and I thank 
the witnesses. I apologize for missing your testimony, but I am 
very excited about this issue. And I have got a staff member 
that is even more excited than me, so we have got some good 
questions prepared.
    Mr. Wright, the CBRS sounds like a very interesting 
technology, and I think I am just going to try and explain what 
I understand of it, is that you have the technology that allows 
switching in and out of different users in the same band at the 
same time. Is that more or less what is happening?
    Mr. Wright. Yes, Congressman. And that is exactly one of 
the things that we think is really novel about these 
coordinated shared spectrum approaches. They get us away from--
and, pardon me, I just want to say we do support a balanced 
designation of licensed to unlicensed and coordinated shared 
spectrum, but we think coordinated shared spectrum needs to be 
an increasing tool that, you know, regulators go to.
    And it provides that flexible use between exclusive and 
permissive uses, as I mentioned to the Congressman from Texas, 
so, yes, there is the flexibility there. And the opportunity 
for people to actually go back and forth is also very key. You 
can start out perhaps at a permissive level, and if there then 
becomes some contention for the spectrum in an area, you can 
then go to an auction and purchase licensed spectrum. So we 
think that flexibility is very critical.
    Mr. McNerney. And you promote expanding that beyond the 3.5 
gigahertz into other parts of the spectrum, is that right, that 
technology?
    Mr. Wright. Yes, Congressman. Obviously, every band that is 
looked at for possible designation, licensed, unlicensed, or 
coordinated shared, each band is going to have its own unique 
characteristics, and we think coordinated shared should be 
looked at. Especially when you have potentially Federal 
protection issues, I think CBRS has shown the ability to 
protect Federal entities, and then this very flexible 
partitioning between exclusive and permissive.
    Mr. McNerney. Well, in your written testimony, you mention 
that the framework would help with rural communities have 
access to broadband. Could you expand on that a little bit?
    Mr. Wright. Yes, Congressman. In our opinion, the 
opportunity for rural carriers, municipalities, or new service 
providers to access the CBRS spectrum, again, either at the 
permissive tier and/or at the priority access or licensed tier, 
would open opportunities to deploy LTE services, you know, at a 
new level, at a local level.
    Mr. McNerney. So it might help us expand broadband to the 
rural communities. It is one of the more economic ways to do 
that.
    Mr. Wright. Absolutely. Because you do not have to acquire 
the rights to exclusive license spectrum. It is much more 
economical to deploy.
    Mr. McNerney. Well, I am going to talk a little bit about 
security here. Yesterday, on an op-ed in The Washington Post, 
FCC Chairman Pai and Acting FCC Chairwoman Holzhausen stated 
that no one had to worry about their privacy because if an 
internet service provider were to sell their customer's 
personal information, it would violate ISP privacy promises.
    I am concerned that these promises are all we have left to 
protect customer privacy. In other words, we don't have the 
rule of law. We just have promises. Now that the CRA has 
passed, is there any Federal law or regulation that could stop 
an ISP from changing its privacy policies tomorrow? Mr. 
Bergmann?
    Mr. Bergmann. So, Congressman, thank you for the question. 
I do want to assure you that nothing has changed with our 
privacy policies. They are the same today as they were 
yesterday, and the FCC still retains authority under Section 
222 to set privacy rules. We are obviously working very closely 
with both the FCC and the FTC and certainly welcome the input 
of this committee on a path to make sure that the FTC, which is 
the expert agency, is able to have a consistent and clear 
framework across the entire internet ecosystem. But I do want 
to make sure that you all understand that nothing has changed 
with respect to our policies and that the FCC continues to have 
its authority under Section 222.
    Mr. McNerney. But you could change your policies, 
theoretically.
    Mr. Bergmann. So, again, our companies all have policies 
that comply with Section 222, the FCC's authority, different 
State laws, and those all govern consumer choice and 
transparency and data security, to your point as well.
    Mr. McNerney. OK. Mr. Wright, again, about the Internet of 
Things, how much unlicensed spectrum is currently available?
    Mr. Wright. Today for Internet of Things we are making 
heavy use of the 2.4 and the 5 gigahertz mid bands for IoT 
devices, so that is technology such as Wi-Fi, ZigBee, 
Bluetooth, LoRa, Ingenue, a number of other ones. The demand 
for unlicensed usage of IoT devices is expected to increase 
significantly from approximately 5.6 billion connected devices 
today to 18.1 billion connected devices by 2022. This is from 
our friends at Ericsson, their mobility report.
    So the demands for unlicensed spectrum to connect IoT is 
increasing rapidly, and that is one of the things that is 
creating a lot of pressure in the mid band for more unlicensed.
    Mr. McNerney. And, with the chairwoman's indulgence, CBRS 
will help in that area?
    Mr. Wright. Yes, Congressman, it will. One of the primary 
applications that we see for CBRS is also with industrial IoT, 
specifically where people like to use LTE technology for IoT 
applications but do it at a lower price point than with 
traditional license spectrum, and we think CBRS accomplishes 
that.
    Mr. McNerney. OK. Thank you. I yield back.
    Mrs. Blackburn. Mr. Kinzinger for 5 minutes.
    Mr. Kinzinger. Thank you, Madam Chair, and thank you all 
for being here with us today. I also want to thank Congressman 
Loebsack for introducing with me the Rural Spectrum 
Accessibility Act. Once again, we introduced this because we 
believe it is imperative to expand wireless coverage in our 
rural communities, so that they are able to stay competitive in 
this increasingly interconnected economy.
    The more we continue to talk and take action on this issue, 
I think the better off for all of our communities in the 
future. Madam Chair, I also have a letter of support from the 
Competitive Carriers Association, CCA, that I would like to 
insert into the record.
    Mrs. Blackburn. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Kinzinger. Thank you.
    Mr. Bergmann, first off, your organization sent out a 
statement of support, and I want to thank you for that. But let 
me ask you, what other actions should Congress take that the 
FCC can't in order to promote the deployment of 5G services and 
infrastructure?
    Mr. Bergmann. So thank you, Congressman, and thank you for 
the legislation as well, too. So the two most important things 
that this committee can do is to focus on spectrum and 
infrastructure siting. And, again, particularly with respect to 
rural areas, infrastructure siting on Federal lands and 
property, Federal lands encompasses 28 percent of Federal 
lands, literally tens of thousands of buildings, so 
particularly in rural areas being able to site more quickly, 
again, will reduce costs, will make it easier for providers to 
get out there, along with incentives such as the legislation 
that you and Mr. Loebsack have introduced.
    Certainly, your oversight of things like the development of 
the mobility fund is extremely important. That provides 
support, and we applaud the FCC for moving forward with a 
mobility fund to help make a better use case for--business case 
for delivering services in those areas.
    And then, finally, again, your oversight over the 
transition of that 600 megahertz spectrum is really important. 
We want a smooth transition that works for all consumers, but 
we really want to make sure that our companies who have just 
invested almost $20 billion are able to build that spectrum out 
because we think that is really going to be key to serving 
rural areas and delivering 5G.
    Mr. Kinzinger. Thank you. I am going to ask you this 
question as well and add Ms. Manner to this. With the closing 
of the incentive auction and revenues right about $20 billion, 
how do you believe we should judge its outcome? We will start 
with you, yes.
    Mr. Bergmann. So we certainly think it was a successful 
auction in terms of spectrum. In terms of revenue, it is the 
second largest auction, again, whether you measure how much 
spectrum is made available or how much revenue was produced. It 
is also just a helpful use case for the tool of an incentive.
    Does it work to give folks a financial incentive to switch 
uses? We certainly believe that, you know, it has allowed 
spectrum to now be used to provide mobile broadband services 
that will be, again, critical for our 5G leadership. It will 
help our companies invest $275 billion over the next 7 years, 
so we are certainly supportive. There will be lessons learned, 
I am sure, with the incentive auction, but we think it is a 
valuable tool.
    Mr. Kinzinger. Thanks.
    Ms. Manner?
    Ms. Manner. Thank you so much. We were not a party to the 
incentive auction, so I don't have much of a view except to say 
that, of course, we are supportive of anything that gets 
spectrum out into the marketplace.
    Mr. Kinzinger. OK.
     Ms. Manner. Thank you.
    Mr. Kinzinger. And then, again, for both if you have 
comments, given Commissioner O'Rielly's comments on the 
potential of another incentive auction, what are your thoughts 
on holding another one? And are there specific bands that we 
should be looking at in that process?
    Mr. Bergmann. So I certainly think it is a very useful tool 
and agree with Commissioner O'Rielly there. And this committee 
has the opportunity with MOBILE NOW to show leadership as you 
have in the past and to create a pipeline of auctions that can 
fuel that 5G lead.
    So certainly as we think about 5G, we think about the need 
for low-band spectrum, mid-band spectrum, and high-band 
spectrum. We would encourage this subcommittee to look at all 
three of those options. We think you ought to be looking at 
100-plus megahertz of licensed spectrum in those low bands, 
hundreds of megahertz of licensed spectrum in the mid bands, 
and then we measure differently, we measure by gigahertz in 
those high bands, tens of gigahertz of spectrum for licensed 
use in those high bands.
    We would be delighted to work with the committee on that 
legislation.
    Mr. Kinzinger. OK. Do you have any opinion on it, Ms. 
Manner?
    Ms. Manner. I would actually raise a slightly different 
point, if I can, Congressman, which is the need for technology 
neutrality and the need to ensure competition among platforms. 
So whether you are looking at MOBILE NOW or spectrum being made 
available that is available today for the FCC to make sure that 
there is sufficient resources for all the platforms to compete 
to meet all of the needs.
    We certainly serve a very different need than mobile 
cellular industry, but to deny spectrum for that use would harm 
consumers, millions of consumers, across the country. So thank 
you.
    Mr. Kinzinger. Yes, thank you.
    Right on time, Madam Chair. I will yield back.
    Mrs. Blackburn. Military precision. I expect no less.
    Mr. Johnson, 5 minutes.
    Mr. Johnson. Thank you, Madam Chair, and thank you to our 
panelists for being here with us today. I spent nearly 30 years 
in the information technology arena before I came to Congress, 
and, obviously cybersecurity, encryption, those are very, very 
important issues to me.
    Mr. Carlson, the Commission on Enhancing National 
Cybersecurity identified risks associated with wireless 
communications as a priority in improving the Nation's cyber 
resilience. What is your company doing to ensure our wireless 
connections are secure?
    Mr. Carlson. So thanks for that question, Congressman 
Johnson. You know, I think the short answer is: everything we 
can. And the longer answer is one that I mentioned earlier, 
which is that when we roll out new networks--and these new 
networks are going to be more than just connecting phones.
    We are really talking about the Internet of Things--and by 
``things,'' that can mean connected cars, factories, 
healthcare--that when you look at the needs from those 
industries, cybersecurity is so crucial that we are really, as 
a company and as an industry, driving the standards bodies who 
make the standards that define what 5G will look like; consider 
cybersecurity up front to bake it in, so that we are not 
tacking it on afterwards, that this is something that is 
thought of at the very beginning when we design these networks.
    Mr. Johnson. Yes, I agree with you. Security is something 
that has to be thought about upfront, in the design of a 
system, not an afterthought. And for generations we kind of 
looked at it as an afterthought, and we are paying some of the 
prices now for that oversight.
    Ms. Manner, it seems that the move to 5G is a more 
fundamental shift than even the evolutions from 2G to 3G to 4G, 
in terms of network architecture and spectral usage. As 
wireless evolves to 5G, though, how must policymakers here on 
the Hill, but also at the FCC, shift our thinking on spectrum 
policy?
    Ms. Manner. Thank you, Congressman. It is actually 
something I have been thinking a lot about, and I wish I could 
tell you I have the right answer, but I can share some thoughts 
if that is OK. I think, first of all, you are looking at a 
number of technologies, wireless technologies, whether it is 
satellite, whether it is unlicensed, whether it is solar 
plains--you know, choose your favorite--that are all going to 
play complementary roles.
    And it is whether--you know, and being chosen, I think the 
most important thing here is giving consumers choice. And if 
you disallow the development of any one technology or favor one 
technology to the detriment of the other, it will impact what 
consumers can do and how the market functions.
    So not that everyone should get equal--I am certainly not 
advocating that, but there is a role, and that is why I think 
you have to move away. And I couldn't come up with a new name, 
so I used technology neutrality, but it is really ensuring 
there is competition among platforms and taking a different 
approach. And so I do think that is going to take a 
revisitation to some of the regulations and, going forward, a 
new mind-set.
    So thank you.
    Mr. Johnson. OK. Sticking with you, Ms. Manner, page 3 of 
your testimony references the resiliency of satellites. You 
know that because satellites are located 22,300 miles above the 
Earth's equator, they are immune to natural and manmade 
disasters taking place on the ground. The importance of such 
resiliency is especially obvious to emergency response 
communications, such as FirstNet.
    How much should resiliency factor into the overall 
broadband equation? And, more specifically, does resiliency 
alone make satellites superior to fiber, wireline, or fixed 
wireless systems?
    Ms. Manner. So thank you. It is a very good question. 
Resiliency--and I used to be deputy chief of public safety and 
homeland security at the FCC, so I have a certain passion for 
these sorts of things. I wouldn't say it makes it superior, but 
it certainly makes it a critical part of the network and the 
ecosystem.
    So, for instance, one of the things my company is doing 
right now in Arkansas, for instance, is working to deploy 
redundant--basically, a back call line for satellite from the 
PSAP to the data center. Today a lot of times a PSAP will have 
two fiber links, but they will be using the same cable. So you 
don't really have resiliency.
    So I think what you will see--and this ties into your last 
question when it comes to 5G--you may not necessarily have 
satellite as the only link, but it is going to be a critical 
part of the network for things like IoT, whether it is security 
or otherwise.
    I think the recent announcement--and congratulations to the 
subcommittee and the committee on the announcement about 
FirstNet--is that one of the big parts of the FirstNet network 
was the announcement of a satellite component, and I think that 
shows how important resiliency and having this added measure of 
security is to the country.
    Mr. Johnson. OK. Well, great.
    Madam Chairman, I yield back. Or, Mr. Chairman. Sorry.
    Mr. Lance [presiding]. Thank you. Thank you very much.
    Mr. Johnson. Changed seats.
    Mr. Lance. Thank you. It has gone downhill.
    Mr. Long, you are recognized for 5 minutes.
    Mr. Long. I think I resemble that remark. You say you are 
going downhill, and then you introduce me?
    [Laughter.]
    Mr. Lance. It was a different paragraph, different chapter, 
different verse.
    Mr. Long. I apologize because I left--I got here right at 
the start of the gavel. You have got to be here at the drop of 
the gavel to get in order to ask your questions. And I got in 
here, and it seemed like this was all on privacy CRA, so I am 
like, you know, maybe I am in the wrong room. So I ran around 
the Capitol, but I think I am in the right spot.
    Mr. Bergmann, you discuss in your testimony the need for a 
spectrum pipeline, but, unfortunately, we seem to find 
ourselves with no future auctions planned. And being an 
auctioneer for over 30 years, I have a little interest in that. 
How imperative is it that we schedule new auctions?
    Mr. Bergmann. So thank you, Congressman. I certainly think 
it is one of the top priorities in terms of facilitating our 5G 
leadership. Having a 5G spectrum pipeline really should be a 
top priority. We encourage this committee to look again at a 
pipeline plan that has low-band spectrum, mid-band spectrum, 
and high-band spectrum for 5G services.
    We believe that all three of those are going to be 
important, and we would certainly encourage you all to build on 
the successes in MOBILE NOW by making sure that we have enough 
spectrum--again, a balance of licensed and unlicensed--but 
enough licensed spectrum in each of those frequencies, in each 
of those different categories.
    Mr. Long. If we do schedule auctions in 2017, how long will 
it take to authorize and conduct an auction and put that 
spectrum to use to serve your customer?
    Mr. Bergmann. We are always paying it forward in the 
spectrum world. We have reaped the benefits of decisions that 
this committee made in the 2000s with our 4G leadership. On 
average, it takes 13 years from when bands are first identified 
to when they are put to use, so it really is critically 
important that we start now in order to unlock that $275 
billion investment, those 3 million jobs that this industry, 
that the wireless industry can create, if this committee can 
move forward with additional spectrum.
    Mr. Long. OK. Just as you mentioned there, I understand 
that we have been a leader in 4G LTE mobile broadband with--I 
had $200 billion in investment since 2010, 4.6 million jobs, 
and a vibrant wireless device and application ecosystem of 
nearly $120 billion, with 3 or 4 companies from the U.S. In the 
race towards the 5G networks, how can we ensure that we see the 
same kind of benefits to the U.S. economy?
    Mr. Bergmann. So you are right, Congressman. It is $200 
billion from the wireless industry of investment just since 
2010. That is building out those 4G LTE networks. We talked a 
little bit about spectrum, and creating that spectrum pipeline 
for 5G is critically important.
    The second piece is modernizing our infrastructure siting 
policies. MOBILE NOW does a nice job addressing siting on 
Federal lands, so we would encourage the committee to look at 
what you all can do in terms of shot clocks and deemed grants, 
so that those burdensome local permitting processes can move 
faster and we can invest and create those jobs. That is 
something that doesn't have to wait. That is something that can 
happen now.
    Our industry is deploying small cells now. We expect to 
deploy hundreds of thousands of small cells over the next 3 
years, and this committee's action can help unlock that and 
speed that investment and speed those jobs.
    Mr. Long. OK. Thank you. And Mr. Bergmann and Mr. Carlson, 
in the MOBILE NOW Act, when it comes to Federal spectrum, the 
bill makes it clear that there must be a preference for 
licensed and auction spectrum, and you also state as much in 
your testimony. With the growing importance of unlicensed and 
sharing spectrum, why is that preference still important? I 
will go to Mr. Carlson.
    Mr. Carlson. Thank you, Congressman Long. You know, the 
miracle, for lack of a better word, that we have seen with the 
explosion of 4G services in the U.S. was driven by licensed 
spectrum. That said, Ericsson fully appreciates and I think 
probably most of our products have built-in Wi-Fi and 
unlicensed flavors of LTE, the standard that we use today.
    And I want to point out that this is crucial for the U.S.'s 
technological leadership worldwide. When we look around the 
world as Ericsson, and we look to, you know, what is going on 
in the rest of the world. The bands that specifically are teed 
up in MOBILE NOW are exactly the bands that the rest of the 
world is looking to do 5G, and they are going to be doing it 
with primarily licensed spectrum. So when you look at 3.1 to 
4.2----
    Mr. Long. It will be in low bands, mid bands, and the high 
bands.
    Mr. Carlson. Yes. You know, the mid band that we are 
talking about in MOBILE NOW is really 3.1 to 4.2. This is just 
a terrific band worldwide and, you know, in our opinion, if the 
U.S. wants to maintain and grow its leadership in mobile 
broadband, this is the band to focus on.
    Mr. Long. OK. Thank you.
    And, Mr. Chairman, I yield back.
    Mr. Lance. Thank you very much, and the Chair recognizes 
Mr. Flores.
    Mr. Flores. Thank you, Mr. Chairman, and I want to thank 
the panel for this enlightening discussion. One of the things 
that was just briefly touched on early in the testimony today 
was the need to set standards for 5G. As I understand it, the 
5G standards are not fully developed at this point.
    I also understand that the Chinese are trying to pack the 
standard-setting committees with their representatives, so that 
they can be the lead in setting the 5G standards.
    I would like to know two things from you--well, actually, 
three things from each of you. Number 1 is, how should we set 
those standards? Number 2 is, what is the--what are the 
implications of the U.S. not having a lead role in setting the 
standards? And, number 3, what should or could the Federal 
Government do, if anything, to be involved?
    So, Mr. Bergmann, let's start with you.
    Mr. Bergmann. So thank you, Congressman. So, interestingly 
enough, U.S. companies play leadership roles in 5G standard-
setting. I am not familiar with the issue that you mentioned, 
but I know that U.S. companies have pressed hard to accelerate 
the timeline for 5G standards. We want to be first.
    And to sort of underscore your point, other countries 
around the globe recognize what we had with our 4G lead. They 
saw the benefits of that. We have the two leading operating 
systems in the world based here in the U.S. We have over 70 
percent of the apps developed in the U.S., and that is in part 
because we were the 4G LTE leaders. The wireless networks here 
gave us that capacity.
    So there really is a global race--China, Japan, South 
Korea. They are making spectrum available. They are 
streamlining their siting processes right now. And so, you 
know, here at home we need to make sure that we are doing the 
same things, that we are making that mix of low-, mid-, and 
high-band spectrum available with an emphasis recognizing the 
value that licensed exclusive use spectrum plays in allowing 
that investment, again, certainly needing a balance of licensed 
and unlicensed, but recognizing that exclusive use is key for 
that investment that will get us that 5G lead.
    Mr. Flores. OK. What is the role, if any, that the Federal 
Government should play, or should it stay the heck out of the 
way? Other than spectrum, OK?
    Mr. Bergmann. The other key piece is infrastructure siting.
    Mr. Flores. OK.
    Mr. Bergmann. Making sure that we can invest and build out 
that spectrum is absolutely critical. We have invested, as I 
mentioned just a moment ago, $200 billion over the last 7 
years, and we are poised to invest 275 billion over the next 7. 
We need to be able to move quickly, and so shot clocks and 
deemed granted remedies are essential for that.
    Mr. Flores. OK. Mr. Wright? And if you can keep your answer 
short, that would be helpful.
    Mr. Wright. Very good. Congressman, I just wanted to agree 
with what Ms. Manner said earlier, that in our opinion 5G will 
be a broad umbrella of technologies that will be needed to meet 
the needs of the American public. That will include satellite 
services, mobile services, unlicensed services such as Wi-Fi.
    I think some of the areas where are showing leadership--
certainly, Mr. Bergman can speak to the great things the 
cellular industry is doing, the advanced things, 3GPP, as an 
organization, other areas certainly on the unlicensed side. And 
specifically with the CBRS framework and coordinated shared 
spectrum, that is a spectrum management tool that the U.S. has 
really innovated about, and I think we should take that 
forward.
    Mr. Flores. OK. Ms. Manner, can you do it in about 45 
seconds?
    Ms. Manner. Yes, thank you, Congressman. I wanted to bring 
up the fact that, actually, the satellite industry is actively 
participating in 3GPP and setting 5G standards as well for 
satellite. So we are very excited----
    Mr. Flores. Do you have a robust seat at the table, in your 
opinion?
    Ms. Manner. I am sorry?
    Mr. Flores. Do you have a robust seat at the table, in your 
opinion?
    Ms. Manner. You know, it is--we are getting there. How is 
that?
    Mr. Flores. OK.
    Ms. Manner. It is really--I have to say, traditionally, the 
satellite industry has not been as active as perhaps they 
should be at the standard-setting bodies, and I think you are 
seeing, especially now with the promise of 5G, that we are 
participating more actively, so I am very excited about that.
    But the other place which people don't often think about is 
at the ITU, but not the radio communications sector but the 
telecommunications sector. And the U.S.--and you asked where 
the Federal Government--and I think is doing a very good job 
led by the State Department--at leading the way towards 
creating 5G as part of the ITU framework on the--besides for 
just on the spectrum side, but on the telecommunications side 
and on the development side. And I think the Federal Government 
should continue that role.
    Mr. Flores. Mr. Carlson, 26 seconds.
    Mr. Carlson. You raise a good point, and that is that 
companies do use the standards by these groups as ways for a 
competitive advantage, and that is no surprise. Ericsson, if it 
makes you feel any better, is very active in 3GPP, and we chair 
a number of the committees there.
    So we do take a lead in trying to make sure that the 
standards that come out of 3GPP are consistent with the 5G 
goals. And since we are so active in the U.S., you know, we are 
very cognizant of the need to keep, you know, the U.S. in the 
forefront and meeting innovation in 5G.
    You also asked specifically what the Federal Government 
could do in relation to standard----
    Mr. Flores. I am running short on time.
    Mr. Carlson. So very quickly, you know, one thing that we 
could do from the Federal Government's point of view is have 
more involvement in the coexistence studies that are used to 
look at different bands in these standards groups.
    Mr. Flores. OK. Thank you very much.
    I yield back a negative 30 seconds of time.
    Mr. Lance. Thank you for yielding back the negative time.
    Mrs. Walters.
    Mrs. Walters. Thank you, Mr. Chairman. I would like to 
thank the committee for holding this hearing and our witnesses 
for being here today. I particularly appreciate your expertise, 
since I am new to the committee and I am still learning 
spectrum policy.
    As other members on the committee have mentioned, spectrum 
plays an increasing role in our lives, particularly as 
consumers use more and more data. Being new to the spectrum 
issue, I am interested in hearing your thoughts on a variety of 
topics.
    Mr. Bergmann, this question is for you. The FCC recently 
issued a public notice on potential FCC actions to help 
expedite the deployment of next generation wireless 
infrastructure. Does the FCC have the authority it needs to 
take the steps you believe are necessary to support next-gen 
networks? And what, if any, steps does Congress need to take to 
address this?
    Mr. Bergmann. Thank you, Congresswoman Walters. 
Infrastructure is an absolutely critical piece of the 5G 
equation. And you are right, the FCC has recently proposed some 
steps. At their April open meeting, they will consider some 
additional reforms as well, too.
    We certainly applaud Chairman Pai and his colleagues at the 
FCC for the steps that they are taking. We think it is 
absolutely appropriate that the FCC update its framework. We 
would certainly encourage this committee to update your 
framework for infrastructure siting as well, too.
    We think that there are things that both the FCC can do and 
that Congress can do. This subcommittee has, over the last 20 
years, provided guidance on the appropriate policy for wireless 
infrastructure siting, trying to make sure that there are not 
delays, trying to make sure that there aren't barriers to 
entry.
    Over a series of laws that were passed over the last 20 
years, this committee has spoken to help recognize the 
importance of having a wireless infrastructure out there. We 
talked a little bit about the evolution of wireless away from 
macro cells towards small cells that are the size of a pizza 
box or a lunch box.
    We really believe it is critically important that we have 
updated policies that reflect the need for much denser 
infrastructure, and the fact that that infrastructure will have 
less of an impact on the environment around it. So we think 
that there is a lot that this committee can do to speed that 
small cell deployment, and that will really help us invest and 
build out that spectrum that you are referring to.
    Mrs. Walters. Great. Thank you. And then I have another 
question for you. I know many providers have faced significant 
challenges when attempting to deploy small cell technology. 
This is especially true in my home State of California where 
some cities have created barriers that hinder efforts to roll 
out new technologies.
    You mentioned in your statement that CTIA supports 
streamlined policies for small cell deployment on Federal 
properties and its support for shot clocks and deemed granted 
remedies. Can you provide an example of some of the 
bureaucratic roadblocks one of your member companies has faced 
when trying to deploy new technologies like 5G?
    Mr. Bergmann. So thank you. Certainly, I would say they 
fall into three buckets, denying access, so that we are not 
able to deploy those small cells through moratoria, which we 
have seen in countless localities across the country, or 
inability to get access to municipal-owned poles. Being able to 
put these small cells on tops of utility poles or lightpoles 
will be critically important towards the self-driving vehicles 
and the kinds of new services that we see out of 5G.
    So access cost, we have seen fees that have no relation to 
the cost to actually manage the right-of-way. So we want to 
make sure that those right-of-way fees are cost-based. And the 
last is delays, and that is where shot clocks and deemed 
granted remedies can be really important.
    Mrs. Walters. OK. Perfect. One more question for you. In 
your testimony, you commented that there are benefits to 
congressionally mandated spectrum auctions for all parties 
involved. The wireless industry gets access to new bands to 
offer better services to consumers, while the Government 
receives some proceeds to send to the treasury. In fact, 
wireless carriers have spent over $100 billion on past spectrum 
auctions, $36 billion of which was directed toward debt 
reduction.
    Can that pace continue, or have we seen the height of 
spending for spectrum?
    Mr. Bergmann. So thank you, Congresswoman. You are 
absolutely right. Spectrum auctions have been I think a 
tremendous win-win for the U.S. economy and for the treasury. 
That spectrum that has been made available, that $100 billion 
that was spent, helped us get the 4G lead. That is what our 
companies built out, that $200 billion over the last 7 years. 
So it is critically important.
    At the same time, it has also allowed Congress to address 
priorities through that $100 billion. If you look just at the 
last 2 years, the last 2 auctions, over $60 billion, funds that 
were used to pay for the buildout of FirstNet, a public safety 
network, and also over $36 billion to reduce the deficit.
    Mrs. Walters. OK. Thank you. And I am just about out of 
time.
    Thank you. I yield back my time.
    Mr. Lance. Thank you very much.
    The Chair recognizes Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it so 
much, and I thank the panel for their testimony today.
    I want to take some time to highlight how spectrum and 
wireless technology is leading to innovation in my district in 
Florida. I represent the Tampa Bay area in Florida.
    The Hillsborough Area Regional Transit, also known as HART, 
will soon be operating phase 1 of its autonomous public bus 
system, thanks to the wireless technology we are discussing 
today. HART will operate two vehicles along a one-mile 
exclusive use route operating a 10 to 15 miles per hour.
    I have high hopes that Hillsborough--again, a county in my 
district; Tampa is the biggest city in Hillsborough County. 
Again, I have high hopes that Hillsborough's first-of-its-kind 
system, based on spectrum technology, spurs further autonomy 
for the Tampa Bay area and also throughout Florida and the 
country.
    Mr. Bergmann, beyond the rapidly advancing technology of 
autonomous vehicles, can you describe what other innovations to 
the transportation sector are expected to arise from 5G 
capabilities? Very exciting stuff.
    Mr. Bergmann. Thank you, Congressman. It is exciting to see 
these next-generation wireless networks built into the 
transportation system. As you mentioned, public transport is an 
area where there is a lot of interest in terms of trying to 
make the public bus systems more efficient. The ability to 
manage these systems with wireless networks are predicted to 
reduce travel times by up to 40 percent, to reduce emissions by 
over 40 percent, so these are the kinds of things that can save 
cities money, but they can also make quality of life better, 
right?
    If we could all reduce our commute times, we would be a 
little bit happier. If the quality of the environment is a 
little bit better, we would be a little happier as well, too.
    There are also opportunities for things like smart parking, 
right? And we see some of that deployed today with 4G networks 
where we are having the ability to, again, reduce cities' costs 
by not having them go out and collect the money for meters as 
often or to route drivers to parking spots more quickly. These 
are small things that spread across the economy can make a big 
difference.
    We are seeing that with 4G. I think we are going to see 
that exponentially greater with 5G. Part of the 5G standards 
are not just faster, more capacity, but the ability to connect 
many, many more devices, up to 100 times the number of devices. 
And the kinds of sensors that we are seeing today in fleet 
management, we are going to have much more capability with 5G. 
So there is a lot of opportunity.
    Mr. Bilirakis. Very good. About 24 percent of my 
constituents are seniors; again, a number well above the 
national average. They are increasingly involved in the 
healthcare market and would greatly benefit from the telehealth 
technologies.
    Mr. Bergmann, in your testimony, you briefly note that 5G 
networks will be more responsible than current abilities, more 
responsive than current abilities. Can you discuss how latency 
is improved in 5G and how it may advance the telehealth sector?
    Mr. Bergmann. That kind of quality service and that 
responsiveness is critical for things like remote surgery, 
right? So to the extent that we are trying to put experts from 
urban areas and connect them with patients in rural areas, it 
is a really critical tool. For the elderly, the ability to have 
remote patient monitoring, right, to have cardiac sensors or 
sensors for diabetes will keep people in their homes longer.
    And then maybe to tie your two questions together, any of 
us with an elderly relative, like the thought I think of self-
driving cars, to give seniors the ability to have their freedom 
while keeping all of us safe on the roads as well.
    Mr. Bilirakis. Very good. Thank you very much.
    I yield back, Mr. Chairman. Appreciate it.
    Mr. Lance. Thank you very much.
    The Chair recognizes Mr. Costello.
    Mr. Costello. Thank you.
    Mr. Bergmann, increasing machine-to-machine communications, 
the rapidly growing IoT, it strikes me that battery life will 
be increasingly important in order to maintain the connectivity 
of these systems. Can you, or anyone else on the panel, explain 
further how 5G technology addresses or impacts battery life in 
IoT?
    Mr. Bergmann. I may defer to my colleagues on some of the 
technical aspects. But certainly as we contemplate mobile first 
lives, this is an important area of innovation for us. We want 
to make sure that we have wireless wherever we want it and 
whenever we want it. So I know it is certainly a priority for 
the manufacturing industry.
    Mr. Wright. Congressman, I will mention that in the context 
of 5G as an umbrella of technologies, including unlicensed 
technologies, if we look at Wi-Fi specifically--the next 
generation of Wi-Fi is called the 80211AX specification--it has 
new capabilities specifically around power-saving on the 
client. And that will be very helpful in the IoT space where we 
have, you know, battery-powered devices and low power 
consumption.
    So, in the Wi-Fi space, we are certainly addressing it, and 
I am sure my colleagues in the cellular industry can address it 
as well.
    Mr. Carlson. Yes. If I may, you know, one of the 
considerations that we look at when we look at standards is a 
recognition that we will have devices out there--and people are 
building toward these standards today--that will have to last 
for 10 years. So we really do see--and to your point about the 
umbrella of 5G, that there will be devices that, in addition to 
requiring high speeds and very low latencies, some of them are 
going to have to last a long time, be out in the field, and so 
we are looking, as an industry, at extremely long battery lives 
and, like I said, in 10 years.
    Mr. Costello. Mr. Carlson, on the MIMO antenna technology, 
can you explain further how the 5G new radio works to alleviate 
network congestion? And how does it address key needs of 5G?
    Mr. Carlson. Well, I can try. When it comes to 5G, there 
are a number of technologies. MIMO is one that allows you to 
use the existing spectrum more efficiently. Other examples are 
beam-forming, and that is what it sounds like. So as you walk 
around, our towers follow you in a virtual sense and aim the 
signal right to you as you move around. So those are some 
examples of how 5G technologies really speed data to you as an 
end user.
    Mr. Costello. On the siting issue, it strikes me that the 
next generation of siting issues is probably more like a 
pipeline approval process than it is your typical cellular 
tower approval process, because you need siting approval in all 
the locations for any one location to actually work when we are 
talking about the micro cells, if I got that term correctly.
    What thought has been given to the issue of preemption for 
the land use approval process or zoning process, or how is the 
industry going about trying to approach the fact that land use 
controls essentially vary municipality to municipality in most 
states?
    Mr. Carlson. It is a difficult question. I mean, it is one 
that we face every day, and hope that through activities such 
as this and MOBILE NOW and other things that we can do here to, 
you know, help unify the process and bring some regularity to 
it.
    Mr. Bergmann has talked at length about some of the 
problems that we see in our industry. I would also like to 
point out that the FCC, for its part, is going to launch a 
Broadband Deployment Advisory Committee, and we fully expect 
these issues to arise there. And hopefully some of the ideas 
there can percolate up to this committee.
    Mr. Costello. OK.
    Mr. Bergmann. Congressman, I would say look how these 
absolutely play an important part in the siting process. And so 
we do a lot of work working with states and localities to 
educate them on the benefits of being the first to 5G. We 
really want to see smart communities, and so, you know, my 
colleagues in the industry have testified in over a dozen 
states since January alone. We are working hard to create 
incentives and interest in being the first.
    At the same time, this committee has played a role 
historically over the last 20 years in setting out guardrails 
on the intersection of that local process and making sure that 
we are prioritizing and able to be first in wireless.
    And as recently as 2012, this committee spoke as part of 
the 2012 Middle Class Tax Relief and Job Creation Act and 
recognized that wireless technology was changing, and actually 
said for collocations when we are adding a new antenna on, 
localities shall approve those and set shot clocks out there 
for those.
    It has now been 5 years and the technology continues to 
evolve as we move towards small cells. We certainly think it 
would be appropriate for this committee to revisit that balance 
and, again, to provide that guidance to the localities so that 
we can make sure that they are able to take into account all of 
the appropriate considerations while making sure that we are 
able to invest and build out that next generation of wireless 
infrastructure.
    Mr. Costello. Good. Thank you.
    I yield back.
    Mr. Lance. Thank you.
    The Chair recognizes Mrs. Brooks.
    Mrs. Brooks. Thank you, Mr. Chairman.
    Building off my colleague from Pennsylvania's question, Mr. 
Bergmann, are there State and local laws on the books right now 
to facilitate this infrastructure deployment that you consider 
particularly forward-looking and that we might build a national 
model? Are there any that come to mind? And, if so, where are 
they, and what are the best features of these laws?
    Mr. Carlson. Sure. Thanks, Congresswoman, and I know your 
background as a former mayor; you have a particular interest in 
this issue.
    Mrs. Brooks. I might add, I was deputy mayor.
    [Laughter.]
    Mrs. Brooks. Wasn't quite mayor, and I am very, very 
pleased that the city of Indianapolis has been chosen to build 
out 5G, but----
    Mr. Bergmann. And we do--so we see some competition amongst 
the cities to try to be first, and recently Ohio and Arizona 
have passed laws. The kinds of things that I think are sort of 
key elements are shot clocks, deemed granted meaningful 
remedies, so that we don't get caught in protracted litigation, 
making sure that we have access to municipal poles, utility 
poles, and lightpoles, so that, again, we can make decisions, 
get access, and build that infrastructure quickly.
    Mrs. Brooks. And the states that are moving forward, is 
this something that has happened at the State and the local 
level? Or is it primarily State legislation that has enabled 
it?
    Mr. Bergmann. I think you see folks both at the State level 
and the local level recognizing that their communities want 
good wireless service, and they want fast wireless service. And 
so, you know, we have certainly seen leaders, both at the State 
and the local level, trying to take steps to facilitate that 
investment.
    Mrs. Brooks. So while we certainly have heard a lot about 
the potential and the importance of 5G, how it will alleviate 
traffic congestion and, as you have brought up, enable more and 
more smart communities, can you talk a little bit--that sounds 
very urban, and many of us I have--while I represent 
Indianapolis, I also have very rural communities and counties 
that I represent. Can you talk about the benefits that 5G will 
offer in rural communities, and can we expect 5G to get to 
rural communities?
    Mr. Bergmann. Sure. So thank you. So, you know, there is a 
ton of innovation and experimentation and thoughts around what 
5G might mean, but let me just offer a couple of ideas. The one 
is as a replacement for fiber. 5G is providing the kinds of 
speeds and capacity that are fiber-like, and so it may provide 
a more cost-effective way of reaching consumers in rural areas.
    Another way is through technologies like remote surgery, 
so, again, allowing an expert in urban area to serve a patient 
in a rural area brings those resources to the rural area. They 
also may then cut down on the cost to transport that patient or 
the time needed, right? When it is time-sensitive, you don't 
want to have to transport a patient from a rural area to an 
urban area, if you can bring someone in through remote surgery.
    And another example that I think is particularly notable is 
the idea of virtual reality in education. So the ability to 
take students in a rural area, have them put on VR-wear and 
immediately be transported into the Roman Coliseum is a 
powerful way to teach those students and make sure that 
students in all areas of the country have opportunities.
    Mrs. Brooks. Thank you. Those are terrific.
    And, Mr. Carlson, and if you would both like to comment.
    Mr. Carlson. Sure. And just briefly, I will add that, 
specifically to your question about how do we guarantee that 
your constituents in rural Indiana reap the benefits of 5G and 
new services, you know, the need for, as we have talked about, 
spectrum in the low band specifically for you, that is crucial.
    And so, you know, the more low-band spectrum that is made 
available--and the FCC just had an auction at 600 megahertz--
the characteristics of that spectrum are just perfect for 
serving--for rural areas because of how far it can travel.
    Mrs. Brooks. OK. Thank you.
    Go ahead.
    Ms. Manner. Thank you, Congressman. So satellite is going 
to play an important part of the 5G infrastructure, and 
especially in rural and remote areas where the cost is 
prohibitive for terrestrial buildout. And so we can talk about 
our services, but I wanted to focus for a second on next 
generation non-geostationary orbit satellites that are going 
up.
    There is a number of applications pending at the FCC, and 
we are an investor in one company called OneWeb, and that is a 
low latency, high broadband speed service that is going to be 
available globally and be able to deliver, even in the most 
remote places as we do, very low latency services that are high 
speed without the need for the cost of the terrestrial 
infrastructure buildout.
    So I do think that is one thing that is really important 
because that is part of the reason terrestrial hasn't built out 
to the rural areas today.
    Mrs. Brooks. Thank you for that explanation. Thank you all 
for your testimony.
    I yield back.
    Mr. Lance. Thank you, Mrs. Brooks.
    The Chair thanks all members of the committee, including 
Ranking Member Doyle, for participation today.
    Seeing there are no further members wishing to ask 
questions for the panel, I thank all of our witnesses for being 
here today.
    Pursuant to committee rules, I remind members that they 
have 10 business days to submit additional questions for the 
record, and I ask that witnesses submit their responses within 
10 business days upon receipt of the questions.
    Seeing no further business before the subcommittee today, 
without objection, the subcommittee is adjourned.
    [Whereupon, at 12:33 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
